Report No. DODIG-2012-058                  February 29, 2012 





      Distribution of Funds and Mentoring of Finance 

     Officers for the Afghanistan National Army Payroll 

                     Need Improvement

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AFMIS                 Afghanistan Financial Management Information System
ANA                   Afghanistan National Army
ANSF                  Afghanistan National Security Forces
ASFF                  Afghanistan Security Forces Fund
CJ8                   Combined Security Transition Command-Afghanistan,
                          CJ8 Directorate
CSTC-A                Combined Security Transition Command-Afghanistan
DFAS                  Defense Finance and Accounting Service
EFT                   Electronic Funds Transfer
FMO                   Financial Management Oversight
FRO                   Finance Reform Office
GSG8                  General Staff G8
NTM-A                 North Atlantic Treaty Organization Training Mission-Afghanistan
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer,
                          DoD
                                   INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                  4800 MARK CENTER DRIVE 

                               ALEXANDRIA, VIRGINIA 22350-1500 



                                                                                February 29, 2012

MEMORANDUM FOR DISTRIBUTION

SUBJECT: 	 Distribution of Funds and Mentoring of Finance Officers for the Afghanistan
           National Army Payroll Need Improvement (Report No. DODIG-2012-058)

We are providing this report for your information and use. From April 2009 through
January 2011, the payroll advances and reporting of $410.4 million of U.S funds distributed to
the Afghanistan National Army included $47.8 million in absolute errors. Additionally, there
was not enough staff or expertise to adequately mentor Afghanistan National Army personnel
during corps site visits on internal controls over the Afghanistan National Army payroll process.
Without improvement, the North Atlantic Treaty Organization Training Mission–Afghanistan/
Combined Security Transition Command–Afghanistan cannot accurately calculate quarterly
advances to the Ministry of Defense or successfully complete the mission to prepare the
Afghanistan government to sustain the Afghanistan National Army payroll process without
coalition support.

We considered comments from the North Atlantic Treaty Organization Training Mission–
Afghanistan/Combined Security Transition Command–Afghanistan and the Defense Finance and
Accounting Service when preparing the final report. Comments on the draft of this report
conformed to the requirements of DoD Directive 7650.3 and left no unresolved issues.
Therefore, we do not require any additional comments. 

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905.




                                             Amy J. Frontz
                                             Principal Assistant Inspector General
                                               for Auditing
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL OFFICER,
   DOD
COMMANDER, U.S. CENTRAL COMMAND
COMMANDING GENERAL, U.S. ARMY CENTRAL COMMAND
COMMANDER, UNITED STATES FORCES–AFGHANISTAN
COMMANDER, NORTH ATLANTIC TREATY ORGANIZATION TRAINING MISSION–
   AFGHANISTAN/COMBINED SECURITY TRANSITION COMMAND–AFGHANISTAN
ASSISTANT SECRETARY OF THE ARMY (FINANCIAL MANAGEMENT AND
   COMPTROLLER)
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
Report No. DODIG-2012-058 (Project No. D2011-D000FR-0089.000)                     February 29, 2012

               Distribution of Funds and Mentoring of
               Finance Officers for the Afghanistan National
               Army Payroll Need Improvement

What We Did                                               This occurred because CJ8 FRO did not have
We audited the accuracy of the distribution of            enough staff or expertise to mentor the ANA
DoD funds to the Afghanistan National Army                during site visits and on internal controls over the
(ANA) payroll and the mentoring of Afghanistan            payroll process. Additionally, CJ8 FRO did not
Ministry of Defense and ANA personnel to                  have adequate procedures for planning site visits.
sustain the payroll process without the assistance        (See Appendix B for the key aspects and control
of coalition forces.                                      weaknesses in the ANA payroll process.)

                                                          Without improving its mentoring, CJ8 FRO
What We Found                                             personnel cannot successfully complete the
The North Atlantic Treaty Organization Training           mission to prepare the Afghanistan government to
Mission–Afghanistan/Combined Security                     sustain the ANA payroll process without coalition
Transition Command–Afghanistan (NTM-                      support. During the audit, NTM-A/CSTC-A
A/CSTC-A), CJ8 Directorate (CJ8) Finance                  increased the number of mentors for the ANA
Reform Office (CJ8 FRO*), did not implement               payroll process.
adequate controls to ensure that $410.4 million of
ANA payroll funds were properly advanced and              What We Recommend
reported to the Ministry of Defense. This
occurred because CJ8 FRO personnel did not have           Among other recommendations, the Director,
written procedures or perform adequate reviews,           CSTC-A, CJ8 Directorate, should implement
and they relied on summary and not detailed data          procedures to ensure the accuracy of the
when distributing the quarterly advances.                 reconciliation and distribution process and partner
                                                          with the Defense Finance and Accounting Service
As a result, CJ8 FRO personnel did not have               (DFAS) to develop control procedures in the
visibility over ANA payroll funds, and they could         ANA payroll audit and mentoring areas.
not accurately calculate and report quarterly
advances to the Ministry of Defense. Specifically,        Management Comments and
CJ8 FRO included $47.8 million in absolute                Our Response
errors in their ANA payroll advances and                  Overall, management comments were responsive
reporting from April 2009 through January 2011.           and no additional comments are required. The
During the audit, NTM-A/CSTC-A took action to             CSTC-A, CJ8 Directorate, was implementing
improve controls over the ANA payroll                     procedures to ensure the accuracy of the
reconciliation process.                                   reconciliation and distribution process and would
                                                          partner with DFAS to the extent possible to
Additionally, CJ8 FRO personnel needed to                 develop procedures in the area of ANA payroll.
improve the mentoring of the Ministry of Defense          Please see the recommendations table on the back
personnel. Specifically, CJ8 FRO personnel only           of this page.
assigned one part-time mentor, with no financial
expertise, to visit the ANA corps, and they did not       *Now called the Financial Management Oversight Office as
provide enough mentoring below the corps level.           a result of NTM-A/CSTC-A reorganization.
                                                      i
Report No. DODIG-2012-058 (Project No. D2011-D000FR-0089.000)    February 29, 2012

Recommendations Table

         Management                Recommendations                No Additional
                                  Requiring Comment           Comments Required
Director, Combined Security                                A.1.a, A.1.b, A.1.c, A.2,
Transition Command–                                        A.3, A.4, B.1.a, B.1.b,
Afghanistan, CJ8 Directorate                               B.1.c, B.1.d

Director, Defense Finance and                              B.2
Accounting Service Indianapolis




                                         ii
Table of Contents
Introduction	                                                                  1     

    Objectives                                                                 1     

    Background on the ANA Payroll and Mentoring                                1

    Review of Internal Controls                                                4

Finding A. NTM-A/CSTC-A CJ8 FRO Did Not Adequately 

Reconcile and Distribute ANA Payroll Funds                                     5

    CJ8 FRO Distribution and Reconciliation Process of ANA Payroll Funds       5

    CJ8 FRO Personnel Made Mistakes During the Reconciliation 

      and Reporting of ANA Payroll Funds                                       6

    Management Took Action to Improve the Reconciliation Process              10 

    Adequate Controls and Guidance Over the Reconciliation and Distribution 

     Process Are Needed                                                       10

    CJ8 FRO Lacked Visibility Over ANA Payroll Funds Distributed              12 

    Recommendations, Management Comments, and Our Response                    13 

Finding B. NTM-A/CSTC-A CJ8 FRO Attained Some Success Through 

ANA Payroll Mentoring but Improvements Would Achieve More Benefits 16 

    Regular Mentoring on the ANA Payroll Process Was Provided                 17

    Insufficient Personnel to Provide Mentoring During Site Visits            18 

    Management Took Action to Add Resources to the Internal Control 

        Team and Mentoring Efforts                                            19         

    Planning for Performing Site Visits Was Not Adequate                      19         

    Personnel Lacked Expertise to Mentor the ANA 

        on Payroll Internal Controls                                          20         

    Management Took Action to Provide Financial Management 

        Oversight at the ANA Corps                                            22         

    Without Improvement, the ANA Payroll Process Was Susceptible 

        to Errors and Fraud                                                   22     

    Recommendations, Management Comments, and Our Response                    23 

Appendices
    A. Scope and Methodology     	                                            25         

        Use of Computer-Processed Data                                        26         

        Prior Coverage on the ANA Payroll and Salary Support                  26 

    B. Key Aspects and Control Weaknesses in the ANA Payroll Process          27 

Management Comments
    North Atlantic Treaty Organization Training Mission-Afghanistan/ 

        Combined Security Transition Command-Afghanistan                      29         

    Defense Finance and Accounting Service                                    38         

Introduction
Objectives
Our objective was to determine whether the North Atlantic Treaty Organization Training
Mission–Afghanistan/Combined Security Transition Command–Afghanistan
(NTM-A/CSTC-A) had adequate controls in place to ensure that it distributed DoD funds
accurately and in a timely manner to the Afghanistan Ministry of Defense for the
Afghanistan National Army (ANA) payroll. In addition, we determined whether
NTM-A/CSTC-A implemented an adequate mentoring process to assist the Afghanistan
Ministries in providing accurate payments to their ANA personnel. See Appendix A for
a discussion of our scope and methodology and prior coverage on the ANA payroll.

Background on the ANA Payroll and Mentoring
ANA is one element of the Afghanistan National Security Forces (ANSF), which also
includes the Afghanistan National Police. The ANSF mission is to provide a
professional, enduring, and self-sustaining security force for Afghanistan. The majority
of ANA personnel are assigned to one of the six ANA corps, which consist of multiple
brigades per corps and multiple kandak1 units per brigade. Figure 1 shows the structure
of an ANA corps.

                                 Figure 1. Structure of an ANA Corps*

                                                ANA Corp


                       1st Brigade            2nd Brigade       3rd Brigade


                             1st Kandak            1st Kandak      1st Kandak


                            2nd Kandak             2nd Kandak      2nd Kandak


                            3rd Kandak             3rd Kandak      3rd Kandak

                         *One of six corps.

According to NTM-A/CSTC-A, the ANA grew quickly from November 2009 through
June 2011. Specifically, the total ANA end strength increased 76 percent from


1
    A kandak is considered to be equivalent to a battalion.


                                                         1

November 2009 to June 2011 (from 97,011 to 171,050 individuals). NTM-A/CSTC-A
officials told us that in June 2011, the six ANA corps accounted for 52 percent of the
ANA end strength, or 88,804 individuals.

DoD Provides Financial Support for ANA Payroll
DoD provides financial support for the ANA payroll through the Afghanistan Security
Forces Fund (ASFF) appropriation. From July 2007 through January 2011, DoD
provided $467.4 million related to ANA payroll. Congress appropriated these funds for
the Commander, CSTC-A, to assist the security forces of Afghanistan, with the
concurrence of the Secretary of State, by providing equipment, supplies, services,
training, facility and infrastructure repair, renovation, construction, and funding. The
purpose of the funds is to enable the manning, training, and equipping of the ANSF and
to provide the security to allow the Afghanistan government to grow and mature.

CSTC-A is a combined command with NTM-A and is stationed in Kabul, Afghanistan.
The NTM-A/CSTC-A mission is to generate and sustain the ANSF, develop leaders, and
establish an accountable Afghan-led security. To accomplish this mission, the
NTM-A/CSTC-A CJ8 Directorate (CJ8) Finance Reform Office (FRO)2 uses ASFF
appropriations to supplement ANA payroll and help grow the ANA.

CJ8 FRO personnel work with the Ministry of Defense to establish quarterly budgets and
advance funding to sustain the ANA payroll. CJ8 FRO personnel also perform high-level
reconciliations to determine DoD advance payments for ANA payroll. The
reconciliations determine whether the prior quarter’s advance was more or less than
actual expenses, and that difference is used to determine the advance payment for the
next quarter. Further, agreements between NTM-A/CSTC-A and the Afghanistan
government establish the percentage of ANA monthly salary, combat or hazard pay,
professional allowance, and food expenditures that CJ8 FRO personnel will reimburse the
Ministry of Defense to sustain the ANA payroll.

Once CJ8 FRO personnel determine the amount of ANA payroll funds to advance to the
Ministry of Defense, they submit a request to the Defense Finance and Accounting
Service (DFAS) for payment. DFAS processes the payment and generally releases the
funds to the Afghanistan Ministry of Finance within 7 days of receiving the request.
According to CJ8 FRO personnel, the Ministry of Finance will not release the funds to
the Ministry of Defense without documentation from DFAS and CJ8 FRO personnel that
the funds are designated for the ANA payroll.

As the ANA has grown, CJ8 FRO personnel have increased the funds advanced for ANA
payroll. Although the Ministry of Defense has the responsibility of distributing ANA
payroll, CJ8 FRO personnel mentor Ministry personnel on the payroll process and




2
  After the drafting of this report, FRO was renamed the CJ8 Financial Management Oversight office as a
result of the NTM-A/CSTC-A reorganization.


                                                   2

auditing of ANA payroll source documents. Table 1 shows that ANA personnel and
funds provided for ANA payroll were steadily increasing each solar year (SY).3

           Table 1. ANA Personnel Paid and ANA Payroll Funds Advanced
                                   ($ in millions)
               Category                            First Quarter
                                             (March 21 through June 21)
                                         SY 1388         SY 1389     SY 1390
     No. of ANA Personnel Paid*         268,735         374,967     503,090
     Funds for ANA Payroll              $34.9           $73.3       $114.4
    *These numbers were calculated by adding the number of ANA personnel paid during each month of
    the SY quarter noted; therefore, they are much higher than the ANA end strength for each month.

ANA Payroll Process
The Ministry of Defense ANA payroll process is manual and takes between 20 and
25 days and 25 and 35 signatures to process. There are three components in the ANA
payroll process: payroll processing, approval and financing, and pay delivery.

Payroll Processing
Processing payroll consists of taking attendance and preparing and delivering payroll
documents to the Ministry of Finance. ANA finance officers create M41 and M16
payroll forms using attendance rosters prepared by ANA personnel officers.

     	 The M41 form is a salary disbursement document and contains all payroll
        information, such as the rank of the individual, identification number, base pay,
        incentive pay, deductions, net pay, and an individual’s bank account number.

     	 The M16 form is a cover sheet with all personnel on the M41 form for a kandak,
        brigade, or corps.

The ANA finance officers physically transport M41 forms from unit levels to the brigade
and corps finance officers, where they become the substantiating record for ANA payroll.
The corps finance officer prepares three copies of the M41 forms and keeps one copy on
file and provides two copies to the Ministry of Finance. One of the two copies is a
softcopy M41 form used by the regional banks to make Electronic Funds Transfer (EFT)
payments to soldiers.

Approval and Financing
Approval and financing is the second component of the ANA payroll process. The
Ministry of Finance and regional branches (mustofiats) review the M41 forms and
prepare two types of checks, which they provide to the corps finance officer. One check


3
 Afghanistan follows the solar year calendar, which runs from March 21 to March 20. For example,
SY 1389 began on March 21, 2010 and ended on March 20, 2011.


                                                  3

type is for EFT to soldiers with bank accounts, and the other is for cash payments to
soldiers without bank accounts.

Pay Delivery
Pay delivery is the final component of the ANA payroll process. The corps finance
officer takes the two checks issued by the Ministry of Finance or mustofiat to the Central
Bank and cashes one check to pay the soldiers at the unit level and deposits the second
check for EFT payments. The Central Bank sends funds by EFT to regional banks to pay
soldiers.

In addition, the corps finance officer must provide the softcopy M41 forms, which
include an individual’s name, amount owed, and bank account number, to regional banks
for payment. The regional bank processes the softcopy M41 forms for EFT payment to
the soldiers. According to CJ8 FRO personnel, the ANA pays 97 percent of its personnel
through EFT.

Recording Payroll Expenses in AFMIS
The ANA and Ministry of Defense account for the ANA payroll expenses in the
Afghanistan Financial Management Information System (AFMIS).4 According to
CJ8 FRO personnel, the ANA finance officers physically carry ANA payroll supporting
documents to the Ministry of Defense-Finance Hawala Directorate, which reviews and
passes the forms onto the Ministry of Defense–Finance accounting director. The
accounting director accounts for the forms in a logbook and then passes the forms to the
Ministry of Defense–Finance Information and Technology Directorate. The Directorate
personnel manually input the data on payroll forms into AFMIS for the ANA units in the
Kabul area, and regional mustofiats input the data for the regional corps. Specifically,
they input the summary amounts for each category code on the ANA payroll forms.
AFMIS totals all summary-level amounts to account for all ANA payroll expenses.

Review of Internal Controls
We determined that internal control weaknesses in the CJ8 FRO ANA payroll
reconciliation and distribution process existed as defined by DoD Instruction 5010.40,
“Managers’ Internal Control Program (MICP) Procedures,” July 29, 2010. Specifically,
CJ8 FRO personnel lacked written procedures for reconciling and distributing quarterly
advances of ANA payroll funds to the Ministry of Defense. In addition, CJ8 FRO
personnel did not complete adequate reviews over the reconciliation and distribution
process.

Additionally, CJ8 FRO personnel relied on summary-level data when calculating
quarterly advances to the Ministry of Defense. Errors in ANA payroll supporting
documents are not identifiable in the summary-level data used to calculate advances of
ANA payroll funds. We will provide a copy of the report to the senior official
responsible for internal controls in NTM-A/CSTC-A for compliance followup.


4
    AFMIS is the official accounting system of the Ministry of Defense.


                                                      4

Finding A. NTM-A/CSTC-A CJ8 FRO Did Not
Adequately Reconcile and Distribute ANA
Payroll Funds
The CJ8 FRO personnel did not implement adequate controls to ensure that
$410.4 million of ANA payroll funds were properly advanced and reported to the
Ministry of Defense. Specifically, when determining the quarterly advance of ANA
payroll, CJ8 FRO personnel:

      used incorrect pay rates,
      made mathematical errors,
      included civilian personnel payroll, although the agreement provided that only
       military personnel would be paid, and
      reported erroneous quarterly overpayments and underpayments of payroll funds to
       the Ministry of Defense.

This occurred because CJ8 FRO personnel lacked written procedures on, and did not
perform adequate reviews of, the reconciliation and distribution process for the ANA
payroll. In addition, CJ8 FRO personnel relied on the AFMIS summary-level expenses
to obtain ANA payroll amounts without performing detailed-level testing as the Defense
Security Cooperation Agency policy required.

Therefore, CJ8 FRO personnel included $47.8 million in absolute errors in their ANA
payroll advances and reporting from April 2009 through January 2011, resulting in a
$4.5 million underfunding of the advance to the Ministry of Defense for SYs 1388 and
1389. Without improved controls, CJ8 FRO personnel could continue to process
reconciliation and distribution errors and not accurately calculate quarterly advances to
the Ministry of Defense. If CJ8 FRO cannot provide the Ministry with an accurate and
representative funding amount for the ANA payroll, the Ministry may not prepare future
budgets accurately and be able to sustain payroll without coalition support. Improvement
is needed for CJ8 FRO personnel to increase their visibility over funds disbursed.

CJ8 FRO Distribution and Reconciliation Process of
ANA Payroll Funds
From April 2009 through January 2011, CJ8 FRO personnel advanced $410.4 million of
ASFF to the Ministry of Defense for the ANA payroll. To advance these funds, they
performed quarterly reconciliations of ANA payroll expenses to the previous payroll
advance. Specifically, CJ8 FRO personnel received an AFMIS expense report from the
Ministry of Defense that included the codes for the quarter that identified salary pay,
incentive pay, and food expenditures. (Codes 21102 and 21103 collected expenses for
ANA monthly salaries for officers and enlisted soldiers, and codes 21110, 21125, and
21200 collected expenses for ANA professional allowances, hazard pay, and food
expenses, respectively.)



                                            5

Since the AFMIS expense reports were cumulative totals for the solar year, CJ8 FRO
personnel used the AFMIS reported amount for the first quarter and manually calculated
expenses incurred for the remaining quarters. They then compared the actual expenses to
the amount of funds advanced to determine whether they overfunded or underfunded the
ANA payroll for the quarter. They considered the overpayment or underpayment amount
when calculating future quarterly advances. CJ8 FRO would then send a request to
DFAS, which processed the payments in a timely manner and generally distributed the
funds to the Ministry of Finance within 7 days.

CJ8 FRO Personnel Made Mistakes During the
Reconciliation and Reporting of ANA Payroll Funds
CJ8 FRO personnel did not implement adequate controls to determine the quarterly
                                          advance of ANA payroll funds during the
                                          reconciliation of funds distributed between
        CJ8 FRO personnel did not
     implement adequate controls to
                                          SY 1388 (March 21, 2009, to March 20, 2010)
    determine the quarterly advance of    and SY 1389 (March 21, 2010, to March 20,
            ANA payroll funds.            2011). Specifically, CJ8 FRO personnel used
                                          incorrect rates, made mathematical errors,
                                          included civilian personnel payroll in the
reconciliation, and erroneously reported quarterly overpayments and underpayments of
payroll funds to the Ministry of Defense. Table 2 provides a breakdown of the quarterly
advance and reporting errors.

       Table 2. Errors in the SY 1388 and SY1389 ANA Payroll Reconciliation
                                     (in millions)
    Type of Reconciliation Error               Quarterly            Reporting   Absolute Error
                                               Advance               Errors        Amount
 Used incorrect rates                            $(5.1)                               $8.9
 Mathematical errors                               0.1                                 0.1
 Incorrectly included civilian payroll             0.5                                 0.5*
 Reporting errors                                                     (18.5)         $38.3
   Total                                          $(4.5)             $(18.5)         $47.8
    *This amount is only for 1 month of the specified time frame.

CJ8 FRO Used Incorrect Rates
CJ8 FRO personnel used incorrect reimbursement rates when reconciling actual expenses
during SY 1389 to calculate the next quarter’s advance. Specifically, for the first quarter
of SY 1389, NTM-A/CSTC-A personnel agreed to reimburse the Ministry of Defense
52.9 percent of the monthly ANA salary expenditures for military officers and armed
forces. However, in the first quarter of SY 1389, CJ8 FRO personnel reimbursed
55.5 percent of actual expenses, resulting in an error of $1.9 million. The $1.9 million
error resulted in an overadvance the following quarter. CJ8 FRO personnel increased the
agreed-upon rate to 55.5 percent of ANA salary expenditures from the second quarter of




                                                   6

SY 1389 through the fourth quarter SY 1389. However, for these quarters, CJ8 FRO
personnel incorrectly reimbursed the Ministry of Defense 52.9 percent of ANA salary
expenditures, resulting in an error of $7 million. The $7 million error resulted in an
underadvance in the second, third, and fourth quarters. Table 3 provides a breakdown of
the net and absolute rate errors by quarter.

                       Table 3. Incorrect Rates Used in SY 1389
                                      (in millions)
                       SY 1389       Net Error      Absolute Error
                    st
                   1 Quarter             $1.9            $1.9
                    nd
                   2 Quarter             (2.0)            2.0
                    rd
                   3 Quarter             (2.4)            2.4
                    th
                   4 Quarter             (2.6)            2.6
                     Total Error        $(5.1)           $8.9

NTM-A/CSTC-A and the Ministry of Defense revised their agreement in SY 1390, and
CJ8 FRO no longer reimburses the Ministry based on a percentage of the ANA payroll.
Instead, the Ministry agreed to fund payroll and food for the first 100,000 ANA military
officers and armed forces and NTM-A/CSTC-A agreed to fund payroll and food for the
remaining ANA military officers and armed forces up to 192,000. However, even though
NTM-A/CSTC-A agreed to reimburse the Ministry of Defense based on the number of
individuals in the ANA in SY 1390, CJ8 FRO personnel told us that, quarterly, they
would calculate a percentage of ANA personnel they agreed to reimburse and use the
percentage to determine actual expenses for the SY 1390 reconciliation. Therefore,
CJ8 FRO should implement additional procedures, such as a detailed review to ensure
they use correct rates when calculating actual expenses for ANA payroll.

Mathematical Errors
CJ8 FRO personnel made mathematical errors during the reconciliation of ANA payroll
funds distributed in SY 1388. Specifically, they reported an overpayment of
$15.729 million to the Ministry of Defense in the third quarter of SY 1388, although the
actual overpayment was $15.785 million, resulting in a $56,000 error. The third-quarter
overpayment resulted from the advanced amount exceeding the actual payroll expense
amount. Further, CJ8 FRO personnel reported that they rolled over $18.600 million of
advanced funds from the fourth quarter of SY 1388 to the first quarter of SY 1389.
However, this figure is a rounded amount, and they should have rolled over
$18.640 million, resulting in a $40,000 error. Therefore, the CJ8 FRO reconciliation
understated actual funds provided for ANA payroll by $96,000 because of the
mathematical errors and, consequently, overfunded the subsequent quarter advance
payment. CJ8 FRO personnel need to develop additional procedures to ensure a
consistent and adequate calculation and review process of the ANA payroll
reconciliation.




                                            7

CJ8 FRO Included Civilian Personnel Pay
CJ8 FRO personnel advanced ANA payroll funds for civilian personnel pay although the
                                               agreement between NTM-A/CSTC-A and
      CJ8 FRO personnel advanced ANA 
         the Ministry of Defense provided that they
    payroll funds for civilian personnel pay 
 would only reimburse military officers and
       although the agreement between 
        armed forces. CJ8 FRO agreed to
      NTM-A/CSTC-A and the Ministry of 
       reimburse codes 21102 (Military Officers)
    Defense provided that they would only 
    and 21103, (Armed Forces). In addition,
        reimburse military officers and 
      CJ8 FRO personnel provided
                 armed forces.
                documentation that civilian employees
                                               were recorded separately: specifically,
codes 21100 (Civilian Employees [permanent]) and 21101 (Civilian Employees
[workers]).

Based on the M41 forms for the ANA Central Kabul Unit for the first month of SY 1389,
CJ8 FRO personnel advanced approximately $525,000 for 3,751 civilian personnel, as
identified by “CIV” identification numbers.5 ANA finance officers confirmed that
personnel with identification numbers starting with “CIV” were civilians; however, ANA
finance officers coded “CIV” personnel either as military officers or armed forces and,
therefore, included them in the advance payments from CJ8 FRO. By including civilians
in the military officers and armed forces payroll, CJ8 FRO personnel overstated the
actual expenses and overfunded the agreed-upon account.

CJ8 FRO personnel were unaware that civilian personnel were being reported under
military personnel pay codes. During the audit, CJ8 FRO personnel said they performed
additional research on this issue and determined that the ANA reports civilian personnel
on the same tashkil6 as ANA officers and soldiers and pays them using the equivalent
military pay grade. CJ8 FRO personnel also said that the Ministry of Defense uses the
civilian employee codes to record contractor expenses. They further stated that the
civilians were mainly filling senior-level positions, such as the chief of a directorate, at
Ministry of Defense headquarters and the general staff level because the Ministry of
Defense did not have enough qualified military personnel to fill those positions. Even
though they stated that the civilian positions were listed on the ANA tashkil, ANA
personnel did not use the tashkil to identify AFMIS transactions, such as paying ANA
soldier or civilian salaries. Therefore, using the same tashkil for civilian and military
personnel should not prevent the Ministry of Defense from properly accounting for
civilian pay.

CJ8 FRO personnel also told us that NTM-A/CSTC-A Command determined that
reimbursement of civilians was appropriate, explaining that the NTM-A/CSTC-A
Command and the Ministry of Defense decided to keep the individuals on the ANA
tashkil and continue to provide funding for ANA civilian personnel pay instead of


5
  See Appendix A for additional details of our sample.

6
  The tashkil is a report of all ANA positions, number of individuals needed at the positions, and the 

required rank to fill the positions. 



                                                      8

creating a separate tashkil and payroll code for civilian personnel. CJ8 FRO personnel
were unable to provide documentation to support this decision. In addition, they were
unable to provide any supporting documentation that the civilian employee codes were
used for contractors, as opposed to civilian employees. Therefore, CJ8 FRO personnel
need to obtain an official decision from NTM-A/CSTC-A Command as to whether they
can appropriately pay civilian salaries. Even though CJ8 FRO could not provide an
official NTM-A/CSTC-A decision to pay civilian salaries, it is not feasible to recover
those funds from the Ministry of Defense because they have already been distributed to
pay civilian salaries.

Erroneous Reconciliations Sent to the Ministry of Defense
CJ8 FRO personnel provided official reconciliations to the Ministry of Defense each
quarter that included erroneous overfunding and underfunding of actual payroll expenses
because the reconciliations included nonpayroll advances for vehicle, medical and lab
expenses, and excluded other valid payroll advances and expenses. During the audit,
CJ8 FRO personnel created a more detailed reconciliation, “SY 1389 Reconciliation for
DoD IG,” which indicated that CJ8 FRO correctly separated transactions for different
expense types. However, this reconciliation did not match the official document sent to
the Ministry of Defense. Table 4 provides a breakdown of the transactions erroneously
reported on CJ8 FRO memoranda to the Ministry of Defense.

         Table 4. Transactions Erroneously Reported to Ministry of Defense
                                       (in millions)
                  Nonpayroll Codes                   Over/(Under) Absolute Error
              in ANA Reconciliation                   Reporting
                                                       Errors
               st
Exclusion of 1 -quarter actual overfunded payroll      $(12.9)          $12.9
expenses when calculating overfunding of
2nd-quarter actual
Inclusion of 2nd-quarter advancement for goods             9.0             9.0
and services and acquisition of assets when
calculating overfunding of 2nd-quarter actual
Exclusion of 3rd-quarter advances and expenses for      (14.6)           16.4
wages and salaries
  Total Error                                          $(18.5)          $38.3

When reconciling the SY 1389 second-quarter actual payroll expenses to the second-
quarter payroll advance, CJ8 FRO personnel erroneously excluded the first-quarter
payroll overfunding of $12.9 million and included a $9 million advance for nonpayroll-
related transactions in the reconciliation provided to the Ministry of Defense. CJ8 FRO
personnel stated that the $9 million was for medicine, vehicles, medical and lab
equipment, and water tankers. This advance should not have been included in the ANA
payroll reconciliation. Because they excluded the payroll funds and included the




                                           9

nonpayroll funds, CJ8 FRO personnel reported that they underfunded the second-quarter
SY 1389 payroll expenses by $4.6 million. Based on their methodology, they should
have reported an underfunding of $0.9 million.

When reconciling SY 1389 third-quarter actual payroll expenses to the third-quarter
payroll advance, CJ8 FRO personnel mistakenly excluded payroll advances and
expenses, resulting in an absolute error of $16.4 million. Specifically, CJ8 FRO
personnel understated the ANA payroll reconciliation by a net $14.6 million because they
excluded a $15.5 million payroll advance and included $0.9 million of nonpayroll
expenses. Therefore, the CJ8 FRO personnel reconciliation provided to the Ministry of
Defense understated the amount of funds remaining in the ANA payroll account at the
end of the third quarter SY 1389. CJ8 FRO personnel told us that the Ministry of
Defense did not perform quarterly reconciliations to determine whether CJ8 FRO
accurately advanced funds for ANA payroll. Rather, the Ministry of Defense relied on
documents provided by CJ8 FRO to determine whether they accurately advanced funds
for ANA payroll in accordance with established agreements. CJ8 FRO personnel,
including the CJ8 FRO Chief, should ensure that the correct overpayments or
underpayments are reported to the Ministry of Defense.

Management Took Action to Improve the
Reconciliation Process
During the audit, CJ8 FRO personnel made improvements when reconciling the ANA
payroll. Specifically, they no longer report the advances and expenses for wages and
salaries, goods and services, and acquisition of assets on the same reconciliation. Instead,
CJ8 FRO personnel created three separate reconciliations for SY 1390, one for wages and
salaries, one for goods and services and one for acquisition of assets, which would allow
for CJ8 FRO and Ministry of Defense personnel to more accurately account for ANA
payroll funds disbursed and calculate quarterly advances.

Adequate Controls and Guidance Over the
Reconciliation and Distribution Process Are Needed
CJ8 FRO personnel, who were limited to 6-month to 1-year rotations, did not have
adequate reconciliation controls to follow, even though the ANA reconciliation process
was manual and complex, requiring a large learning curve. Specifically, CJ8 FRO
personnel needed to develop written procedures, perform adequate reviews, and perform
detailed-level testing when reconciling the quarterly payments. During the reconciliation
process, CJ8 FRO personnel used several pieces of information to calculate the net of
cumulative payroll advances and expenses. Specifically, using the prior quarter’s
advance and actual payroll amounts, they calculated the subsequent quarter’s advance of
funds. Due to the complexity of this, CJ8 FRO needs adequate controls in place for
distributing and reconciling advances of ANA payroll funds to the Ministry of Defense.

CJ8 FRO Lacked Written Procedures
CJ8 FRO personnel did not have written procedures for reconciling quarterly advances
for ANA payroll. In addition, staff rotated every 6 months to a year and, therefore,


                                            10 

verbally passed down the reconciliation and distribution process to rotating staff.
Further, CJ8 FRO personnel said that the lack of written procedures and the learning
curve associated with ANA payroll created a challenge for individuals deploying to their
office and directly contributed to the incorrect rates, mathematical errors, and reporting
errors that occurred in the reconciliation. By implementing written procedures, CJ8 FRO
personnel would ease the transition for individuals deploying to their office and
potentially reduce the amount of errors in the reconciliation and distribution of ANA
payroll funds.

Also, when CJ8 FRO personnel implement the written procedures, they will be in
compliance with the Under Secretary of Defense Comptroller/Chief Financial Officer,
DoD (USD[C]/CFO), guidance. Specifically, on February 4, 2011, in response to a
November 12, 2009, Deputy Secretary of Defense memorandum, “Management of
Afghanistan Security Forces Funds,” USD(C)/CFO issued guidance requiring the
NTM-A/CSTC-A Command to establish written standard operating procedures to ensure
compliance with all applicable laws, regulations, and guidance. The guidance also
requires NTM-A/CSTC-A to ensure that adequate oversight and fiscal controls are in
place to safeguard any appropriated funds provided to the Afghanistan government and
maintain auditable records of all disbursements and supporting documents.

In response to the USD(C)/CFO February 2011 memorandum of interim guidance,
NTM-A/CSTC-A Command issued guidance on April 15, 2011. However, the guidance
lacked enough detail to be considered a standard operating procedure for the CJ8 FRO
reconciliation and distribution of quarterly advances for ANA payroll. Therefore,
CJ8 FRO personnel need to develop procedures for quarterly advances of ANA payroll to
ensure consistency and accuracy in the calculation of payments made to the Ministry of
Defense.

Adequate Reviews Are Needed
CJ8 FRO personnel did not perform adequate reviews of the ANA payroll reconciliation
and distribution process. Although written procedures related to the internal control
environment are essential, procedures for reviewing are also needed to create a strong
internal control environment that ensures that personnel are following the written
procedures.

CJ8 FRO personnel said that the CJ8 FRO Chief as well as the CJ8 Director reviewed the
reconciliation and disbursement requests for ANA payroll. However, they did not have
written guidance that described the specific procedures that reviewers should follow for
the reconciliation and distribution of ANA payroll funds before providing DFAS with a
request for payment. The specific procedures should include a review of the rates used to
calculate actual ANA payroll expenses, verification of the arithmetic, and a review of the
types of funds that should be included in the ANA payroll reconciliation. Therefore, the
CJ8 FRO Chief and CJ8 Director should develop control procedures to ensure that their
reviews of the quarterly reconciliations are adequate to prevent future errors.




                                            11 

Detailed-Level Testing Not Performed
CJ8 FRO personnel did not perform detailed-level testing on summary-level expenses
before advancing ANA payroll funds to the Ministry of Defense as required by the
                                                  Defense Security Cooperation Agency
       CJ8 FRO personnel did not perform          September 2007 policy, “Afghanistan
     detailed-level testing on summary-level      Security Forces Fund (ASFF) Afghan
     expenses before advancing ANA payroll        National Army Salary Reimbursement
         funds to the Ministry of Defense.        Standard Operating Procedure (SOP).”
                                                  Specifically, the policy stated that
NTM-A/CSTC-A should routinely audit the reimbursement program to ensure that the
financial data provided by the Ministry of Defense were accurate. CJ8 FRO personnel
were unaware of the Defense Security Cooperation Agency policy requirement and,
consequently, did not perform audits of the detailed-level data.

Instead, CJ8 FRO personnel relied on the AFMIS summary-level expenses provided by
the Ministry of Defense when calculating quarterly advances for ANA payroll. Even
though the Ministry did not provide source documents in its quarterly reimbursement
packet, CJ8 FRO personnel had the ability to obtain ANA payroll source documents from
the Ministry and ANA corps. If CJ8 FRO personnel had performed detailed-level testing,
they could have identified that they were paying civilian salaries during SY 1389 and
taken appropriate action at that time. CJ8 FRO personnel need to routinely perform
detailed-level testing of the Ministry of Defense source documents so they are aware of
who is paid with ANA payroll funds and ensure that they are reimbursing the Ministry of
Defense within the terms of the agreement.

In addition, although they worked with the ANA finance officers to audit ANA source
documents monthly, CJ8 FRO personnel did not consider the results of the audits when
calculating advances for ANA payroll. CJ8 FRO personnel should incorporate the results
of their source documentation audits when they advance the Ministry of Defense funds.

CJ8 FRO Lacked Visibility Over ANA Payroll
Funds Distributed
Improvement is needed for CJ8 FRO personnel to increase their visibility over ANA
payroll funds disbursed to the Ministry of Defense and to prevent errors in ANA payroll
reimbursement amounts. Between April 2009 and January 2011, CJ8 FRO personnel had
$47.8 million of absolute errors when determining or reporting the quarterly advance of
ANA payroll funds. Specifically, $9.5 million of absolute errors related to incorrect
rates, mathematical errors, and civilian payroll and resulted in either an overfunding or
underfunding of the ANA payroll expenses. The remaining $38.3 million of errors
resulted in incorrect overfunding or underfunding reported to the Ministry of Defense.
Without an adequate reconciliation and distribution process, CJ8 FRO cannot accurately
calculate quarterly advances to the Ministry of Defense.

Calculating quarterly advances to the Ministry of Defense is important to ensure that the
CJ8 FRO mission to prepare the Afghanistan government to sustain the ANA payroll


                                            12 

process without North Atlantic Treaty Organization support is met. Specifically, CJ8
FRO personnel need to ensure that the quarterly advances are accurate because the
Ministry of Defense is relying on the advances to sustain ANA payroll. If CJ8 FRO
cannot provide the Ministry with an accurate and representative funding amount for the
ANA payroll, the Ministry may not prepare future budgets accurately.

Recommendations, Management Comments, and
Our Response
A. We recommend that the Director, Combined Security Transition Command-
Afghanistan, CJ8 Directorate:

       1. Develop procedures to ensure that:

          a. Consistent and adequate reconciliations of funds advanced for the
Afghanistan National Army payroll are being performed.

           b. Correct rates, verification of arithmetic, and only payroll-related
transactions are being used during the payroll distribution process.

NTM-A/CSTC-A Comments
The Deputy Director, NTM-A/CSTC-A CJ8, agreed and stated that the CJ8 ANA
Financial Management Oversight (FMO) office created and completed in March 2011 a
fund tracking spreadsheet to facilitate quarterly reconciliations, including formulas to
prevent calculation and rate mistakes. Further, he said the spreadsheet broke out funding
codes to ensure the reconciliations only included payroll-related transactions.

In addition, the Deputy Director said that every transaction must be entered into the fund
tracking spreadsheet and analyzed before the CJ8 FMO Chief and Director approve the
request, reducing the chance of mathematical errors. He also stated that the mandatory
use of the spreadsheet by CJ8 ANA FMO personnel would ensure consistent and
adequate reconciliations of ANA payroll funds.

Finally, the Deputy Director stated that the CJ8 ANA FMO and Comptroller divisions
were revising the standard operating procedures to clarify proper payroll review
processes and identify how to reconcile payroll expenditures to prevent the recurrence of
errors. The expected completion date was April 1, 2012.

           c. Correct amount of funds being advanced are accurately reported to
the Ministry of Defense.

NTM-A/CSTC-A Comments
The Deputy Director, NTM-A/CSTC-A CJ8, agreed and stated that the revised standard
operating procedures would detail procedures to ensure the reconciliation matches the
official document sent to the Ministry of Defense. He said that before NTM-A/CSTC-A
CJ8 requests that DFAS transfer any funding to the Ministry of Defense, CJ8 ANA FMO


                                            13 

personnel must reconcile expenditures by budget code; the CJ8 Director must send a
letter informing the Ministry of Defense-Finance of the upcoming payment; and the
Ministry of Finance must send an acceptance letter to the CJ8 Director.

      2. Develop written procedures to ensure there are adequate reviews of the
quarterly reconciliations to prevent future errors.

NTM-A/CSTC-A Comments
The Deputy Director, NTM-A/CSTC-A CJ8, agreed and stated that in addition to the
revised standard operating procedures referenced in the above recommendation, corps
finance advisors were being trained to facilitate a detailed review process, which would
be in place by April 1, 2012. He said that once the advisors were in place,
NTM-A/CSTC-A CJ8 would finalize procedures to ensure verification of salary
payments.

Further, he stated that a new system, the Budget Preparation and Expenditure Tracking
Database, would give each corps and CJ8 ANA FMO personnel the ability to pull
detailed financial reports, which are not available through AFMIS. The Budget
Preparation and Expenditure Tracking Database is an electronic, structured budget
process developed by an Afghan Ministry of Finance contractor and is expected to be
completed by April 1, 2012.

       3. Perform quarterly detailed-level testing of the Ministry of Defense source
documents to ensure that the Afghanistan National Army payroll records in the
Afghanistan Financial Management Information System are accurately reported
before advancing funds to the Ministry of Defense.

NTM-A/CSTC-A Comments
The Deputy Director, NTM-A/CSTC-A CJ8, agreed and stated that CJ8 ANA FMO
personnel were training corps finance advisors to perform quarterly detailed-level
reviews of source documents to ensure the accuracy of ANA payroll records. He said the
advisors and CJ8 ANA FMO personnel would also review monthly the Ministry of
Defense payroll documents at all levels, including corps and below. Further, he stated
this additional oversight, expected to be implemented no later than April 1, 2012, would
ensure proper accountability and accuracy of reports through comparison of reports and
training of ANA finance officers on proper procedures.

The Deputy Director also stated that CJ8 ANA FMO personnel were working with the
Ministry of Defense to gain access to AFMIS, which would allow more visibility and a
more in-depth review of the data. In addition, he said that the Computerized Payroll
System would provide another means to verify the data and interface with the personnel
management system and was expected to be implemented no later than October 2012.
Finally, the Deputy Director stated that access to these systems would help
NTM-A/CSTC-A CJ8 verify that personnel were being paid correctly, and would
minimize the number of ghost accounts and enhance transparency and accountability in
the payroll system.


                                           14 

Our Response
The Deputy Director, NTM-A/CSTC-A CJ8, comments on Recommendations A.1
through A.3 were responsive, and no additional comments are required.

      4. Obtain an official decision from the North Atlantic Treaty Organization
Training Mission–Afghanistan/Combined Security Transition Command–
Afghanistan Command as to whether it can appropriately pay civilian salaries.

NTM-A/CSTC-A Comments
The Deputy Director, NTM-A/CSTC-A CJ8, agreed and stated that civilian salaries were
paid by the Afghanistan government under budget codes 21100 and 21101, which were
not funded by ASFF. The Deputy Director also stated that his office expected to receive
official guidance from NTM-A/CSTC-A leadership on civilian pay salaries by
April 1, 2012. In addition, he said that the new corps finance advisors would be able to
confirm that civilians were not receiving U.S.-funded pay.

Our Response
The Deputy Director, NTM-A/CSTC-A CJ8, comments were responsive, and no
additional comments are required. Specifically, he stated that his office would obtain an
official decision from NTM-A/CSTC-A leadership on civilian pay salaries. However, the
Deputy Director’s remaining comment that civilian salaries were not funded by ASFF
was not accurate. Our audit results showed that civilian salaries were paid under budget
codes 21102 and 21103, Military Officers and Armed Forces, respectively, and were
funded by ASFF. During our audit, NTM-A/CSTC-A CJ8 personnel stated that budget
codes 21100 and 21101 were for contractor employees, not civilian salaries. The data
obtained by the corps financial advisors should show that NTM-A/CSTC-A personnel
paid Afghan civilians under budget codes 21102 and 21103.

If the data obtained by the advisors do not show that NTM-A/CSTC-A personnel paid
Afghan civilians with ASFF, we request that the Deputy Director CJ8 provide us with the
supporting documentation that the advisors obtained.




                                           15 

Finding B. NTM-A/CSTC-A CJ8 FRO Attained
Some Success Through ANA Payroll
Mentoring but Improvements Would Achieve
More Benefits
Although CJ8 FRO personnel established a framework to regularly mentor the Ministry
of Defense-Finance7 and the General Staff Finance Office (GSG8)8 to sustain the ANA
payroll process without coalition support, some improvement was needed. Specifically,
CJ8 FRO personnel:

    	 only performed site visits to mentor and audit each of the six ANA corps twice a
       year, and rarely performed site visits below the corps level;

    	 only dedicated one part-time mentor, who had no financial experience, to visit all
       sites to complete audits of the ANA payroll and mentor the ANA finance officers;

    	 did not always adequately plan the site visits to ensure that necessary 

       documentation and ANA personnel were available; and 


    	 did not provide adequate mentoring on key controls in the ANA payroll process.

This occurred because the CJ8 FRO did not have enough staff to adequately mentor the
ANA during corps site visits. In addition, CJ8 FRO personnel did not have procedures in
place for planning sites visits and ensuring that documentation existed to complete
reviews. Further, CJ8 FRO personnel lacked the expertise to adequately mentor the ANA
on internal controls over the payroll process. As a result, the ANA payroll process was
susceptible to errors and fraud, which were difficult to detect, and at least one instance of
fraud occurred that was not detected by CJ8 FRO personnel.

In addition, it will take longer for CJ8 FRO personnel to complete and reinforce proper
business practices and determine what controls are needed to improve the ANA payroll
process without a better understanding of the issues at all levels. Therefore, without
improving the mentoring program, CJ8 FRO personnel cannot successfully complete the
mission to prepare the Afghanistan government to sustain the ANA payroll process
without coalition support.




7
  The Ministry of Defense-Finance receives and allocates funds from the Ministry of Finance, develops and
submits ordinary and developmental budgets, monitors current-year budget execution and publishes budget
guidance for the Ministry of Defense.
8
  GSG8 is responsible for all financial matters affecting the ANA for budget and execution, pay and
evaluation of the general staff, and subordinate and unit budgets.


                                                   16 

Regular Mentoring on the ANA Payroll Process
Was Provided
CJ8 FRO personnel established a framework to regularly mentor the Ministry of
Defense-Finance and GSG8 personnel on the ANA payroll process, such as improving
controls over verifying ANA payroll amounts and expansion of banking services. The
following are some of the focus areas to help build internal controls into the payroll
process.

   	 Computerized Payroll System. CJ8 FRO personnel have been mentoring the
      Ministry of Defense on implementing and using the Computerized Payroll System
      at its headquarters. According to CJ8 FRO personnel, the Computerized Payroll
      System is an Access database owned and managed by the Ministry of Finance and
      is intended to expedite the ANA pay process, eliminate ghost accounts, and create
      a more auditable force. If implemented correctly, this system should help
      improve the controls over the payroll process.

   	 Personnel Asset Inventory. CJ8 FRO personnel, along with the Afghanistan
      government and other NTM-A/CSTC-A personnel, have been conducting a
      personnel asset inventory of ANSF, which includes a head count, biometrics
      enrollment (such as finger printing), financial data verification, and new
      identification cards. This inventory review is intended to help ensure an accurate
      baseline of the personnel and financial accountability. If implemented correctly,
      this system should help identify ghost accounts and reconcile pay inquiries.

   	 Internal Control Teams. CJ8 FRO personnel helped develop GSG8 internal
      control teams, which consist of one CJ8 FRO personnel and three GSG8
      personnel that travel each month to regional ANA corps to inspect the ANA
      payroll process. CJ8 FRO personnel train and mentor the GSG8 teams and unit
      finance officers. CJ8 FRO personnel, along with their GSG8 counterparts,
      conduct audits and perform financial internal control assessments of the corps
      finance offices and ANA payroll process. CJ8 FRO personnel are attempting to
      standardize the audit process with the ANA and establish a new inspection
      protocol with the GSG8 teams. Creating and mentoring internal control teams is a
      vital element of developing a strong internal control system and, if implemented
      correctly, should help the ANA payroll process.

   	 Electronic Payroll Disbursements. CJ8 FRO personnel mentored the Ministry
       of Defense-Finance and GSG8 officers on the expansion of banking services for
       the ANA payroll. CJ8 FRO personnel told us that they were reducing the cash
       disbursements paid to soldiers to 3 percent. Paying the soldiers in cash is
       inherently vulnerable to corruption; therefore, reducing cash payments will in turn
       reduce corruption and fraud.




                                           17 

Insufficient Personnel to Provide Mentoring During
Site Visits
Although CJ8 FRO personnel regularly mentored the Ministry of Defense-Finance and
                                                GSG8 officers, they needed to improve
                                                the quantity and expertise of the mentors
     CJ8 FRO personnel needed to improve
                                                performing the mentoring duties and
      their mentoring of finance officers in
     implementing internal controls to help     audits of ANA payroll as well as the
           prevent ANA payroll fraud.           planning of those site visits. In addition,
                                                CJ8 FRO personnel needed to improve
                                                their mentoring of finance officers in
implementing internal controls to help prevent ANA payroll fraud.

Although the development of the internal control teams improved the ANA payroll
process, CJ8 FRO still needed more staff to perform the mentoring duties at the corps
level and below. Specifically, CJ8 FRO assigned one part-time staff member who did not
have a financial background to fulfill the mentoring duties. Also, the part-time mentor
and the GSG8 internal control team personnel only visited each of the six ANA corps
twice a year and rarely performed site visits to the brigade or kandak units, even though
mentoring was necessary at all levels because the documentation originated at the
brigades and kandaks.

Within the six ANA corps are brigade and kandak units. The finance officers from these
units manually transported the payroll documentation to their respective corps. As of
                                              June 2011, the ANA assigned 88,804
      Auditing and mentoring on the ANA       soldiers to the six corps–more than half of
      payroll process at the sites for more   the ANA end strength. Because of the
      than 88,000 soldiers was a task too     volume of the payroll documents being
     large and complex for one CJ8 FRO        prepared, it was important for CJ8 FRO to
        individual on a part-time basis.      complete audits of ANA payroll and mentor
                                              the ANA finance officers. However, the
auditing and mentoring on the ANA payroll process at the sites for more than
88,000 soldiers was a task too large and complex for one CJ8 FRO individual on a part-
time basis, especially one without financial and accounting experience.

CJ8 FRO personnel stated that the reason they only assigned one part-time staff member
to mentor at the corps level was because they did not have enough staff to complete
audits of ANA payroll and mentor the ANA finance officers. Mentoring more regularly
at all levels was necessary, in part because according to NTM-A/CSTC-A personnel, in
2010, only about 15 percent of the ANA soldiers were at a first-grade literacy level. With
that type of challenge, consistent mentoring was key to ensuring comprehension and
retention. Additionally, CJ8 FRO personnel noted the danger in sending CJ8 FRO
personnel to the remote brigades and kandaks for mentoring. While we recognize the
danger of requiring CJ8 FRO personnel to travel to the brigade and kandak units, CJ8
FRO should develop procedures to ensure that the brigade and kandak finance officers
are also mentored. These procedures could include:



                                            18 

      requiring the finance officers to travel to the corps level when the mentors visit,
      requiring extensive training before deploying ANA finance officers to the brigade
       or kandak, or
      implementing a “train-the-trainer” approach.

Management Took Action to Add Resources to the
Internal Control Team and Mentoring Efforts
During the audit, CJ8 FRO officials took steps to add resources to the internal control
team and mentoring efforts. Specifically, they requested three full-time Army finance
officers to fill the internal control team positions, which are 365-day deployments. Along
with mentoring the GSG8 internal control teams on how to audit ANA payroll, CJ8 FRO
personnel said that the three Army finance officer positions would conduct a 5-percent
forensic audit of each unit’s payroll documents. The audit would include an inspection of
the ANA corps monthly entitlement report, M41 documentation, and banking deposit
report. The additional finance officers will allow the CJ8 FRO to perform more site visits
and audits of ANA payroll supporting documents.

We commend CJ8 FRO officials for taking action, and they should also monitor the
effectiveness of the new personnel to determine whether additional personnel are needed.

Planning for Performing Site Visits Was Not Adequate
CJ8 FRO personnel did not adequately plan the site visits to ensure the best use of
resources. Specifically, CJ8 FRO personnel performed site visits even though the corps
did not always have the M41 salary disbursement documents available. For example,
during an April 2011 site visit to one corps, M41 forms and other supporting documents
were not available to audit. According to the ANA internal control team officer-in-
charge, the corps did not have budgetary authority in SY 1389 to process the M41
documents for payment. Therefore the corps sent the M41 documents to the Ministry of
Defense–Finance in Kabul for processing the pay for the ANA soldiers. The audit of the
M41 documentation was a key part of the site visit that could not be completed.

In addition, ANA finance officers were not always available for mentoring during site
visits. For example, during a December 2010 internal control team site visit to another
corps, CJ8 FRO personnel found that one of the kandak units did not have a finance
officer. According to CJ8 FRO personnel, the previous finance officer recently traveled
to Kabul to have his title of “Finance Officer” finalized at the General Staff headquarters.
Upon arriving in Kabul, General Staff decided this person did not have the qualifications
to be a finance officer. The corps and brigade finance officers did not know that this
kandak did not have a finance officer, and this limitation impeded the CJ8 FRO
personnel’s ability to verify payroll amounts and mentor ANA finance officers.

The lack of adequate planning occurred because CJ8 FRO did not have procedures in
place for planning site visits to ensure that documentation existed and to have ANA




                                            19 

finance officers available to complete audits. CJ8 FRO personnel told us they were
placing a corps finance advisor at each corps, which would allow them to mentor ANA
finance officers and audit ANA source documents more frequently.

Once the six regional corps finance advisors are in place, the CJ8 FRO should coordinate
with them and develop procedures for planning future internal control team site visits.
For the teams to be effective, payroll documentation and ANA finance officers need to be
readily available.

Personnel Lacked Expertise to Mentor the ANA on
Payroll Internal Controls
In addition to the lack of adequate site visits, CJ8 FRO personnel needed to improve their
mentoring on internal controls over all stages of the ANA payroll process. For instance,
CJ8 FRO should help the Ministry of Defense implement better internal controls for the
following.

   	 Verification of Incentive Pay and Entitlement. ANA G8 (Finance Office)
      personnel told us that they relied on ANA G1 (Personnel Office) certifications,
      such as being certified in explosive ordnance disposal, without any supporting
      documentation or testing. Without proper internal controls to ensure that the
      incentive pay and entitlements were correct, there was a significant risk that these
      amounts were not accurate.

   	 Unique Identification Numbers. ANA identification numbers on the M41 form
      were not unique. This internal control weakness left the ANA payroll process
      vulnerable to duplicate payments and ghost soldiers. In addition, duplicate
      identification numbers would create a challenge for the ANA when transitioning
      to an automated payroll system.

   	 Separation of Duties. The ANA finance officers manually input all employee
      data into the M41 and M16 forms, including salary amount and employee
      personnel information. The softcopy M41 forms are reviewed and are manually
      transported by the same ANA finance officers to banks, where they are used as
      the sole basis for paying a soldier’s salary. With no separation of duties, this
      control weakness increased the potential for fraud and errors. In addition, the
      ANA payroll process did not have procedures in place for easily identifying the
      individuals responsible for creating payroll documents. Moreover, it required
      between 25 and 35 signatures, many of which were not legible.

   	 Transfer of Softcopy Banking Records. ANA finance officers physically
      transported the softcopy M41 forms to the regional bank for processing and
      paying soldiers. Physically moving data on compact discs or flash drives would
      leave the data vulnerable to change or loss. Further, having ANA finance officers




                                           20 

       who prepare the M41 forms and cash checks at the Central Bank to pay soldiers
       would increase the risk of theft and fraud. The ANA could use regional bank
       mobile pay teams to pay soldiers in areas without banking access.

   	 Lack of Access to Bank Records. ANA did not have access to the bank records
       to verify that the bank disbursed the payroll funds appropriately. This increased
       the risk that the bank could erroneously or fraudulently disburse employee
       payroll. However, NTM-A/CSTC-A personnel stated that in July 2011, they
       requested the Ministry of Finance provide the CJ8 FRO a monthly summary EFT
       report with the total number of EFT transactions that Afghan banks made into the
       ANA soldiers’ bank accounts. Further, CJ8 FRO personnel stated they were
       requesting that the EFT report list the total EFT transactions for the regional corps
       and central units. The details the reports provided were softcopy individual
       account transactions that were cross-checked for duplicate and multiple
       transactions to an account.
These weaknesses occurred, in part, because CJ8 FRO did not have the expertise to
identify where internal controls could be strengthened, such as assigning personnel
without a financial background to mentor ANA finance officers. DFAS should be able to
provide the payroll processing expertise that CJ8 FRO needs. DFAS was created to
standardize, consolidate, and improve accounting and financial functions throughout
DoD. DFAS pays all DoD military and civilian personnel, retirees and annuitants, as
well as DoD contractors and vendors.

Because of DFAS personnel’s extensive experience with paying military and civilian
personnel, CJ8 FRO personnel should coordinate with them to review the ANA payroll
process to determine what internal controls are lacking. In addition, DFAS should make
the appropriate resources available to CJ8 FRO to adequately mentor the Ministry of
Defense on the ANA payroll process.

One area in which CJ8 FRO and DFAS should work together and mentor the Ministry of
Defense personnel is verifying whether ANA personnel are authorized to receive
incentive pay and entitlements. DFAS could also assist the Ministry in determining
where to implement separation of duties.

Further, CJ8 FRO and DFAS personnel could mentor the Ministry personnel in the use of
techniques to reduce the amount of human interaction required before paying soldiers.
For example, the Ministry of Defense could transfer funds from the Ministry of Finance
to the Central Bank by EFT and remove this responsibility from ANA finance officers.
This could help to eliminate the theft or loss of checks transferred manually. In addition,
CJ8 FRO and DFAS personnel should ensure that the Ministry of Defense implements
controls to minimize the altering of softcopy M41 forms before the banks process the
forms for EFT payment. Appendix B shows the key aspects of the ANA payroll process
and also highlights the control weaknesses where NTM-A/CSTC-A could work with
DFAS to implement controls.




                                            21 

Management Took Action to Provide Financial
Management Oversight at the ANA Corps
To address the payroll-related internal control weaknesses, CJ8 FRO took action in
June 2011 to request six contracted regional corps finance advisors to provide financial
                                             management oversight, train on pay
    CJ8 FRO took action in June 2011 to      resolution issues, and implement policies and
     request six contracted regional corps   procedures to reduce the opportunity for
     finance advisors to provide financial   fraud at the ANA corps level. According to
            management oversight.            the CJ8 FRO, finance advisors would assist
                                             in advising in all areas of standardizing and
executing proper payroll procedures. Finance advisors would also advise and train ANA
corps finance officers in developing a pay issue inquiry and resolution process and
improving the efficiency and effectiveness of the pay process. CJ8 FRO personnel told
us that the NTM-A General Officer Steering Committee approved the requirement, and
funding for the six regional corps finance advisors and the statement of work was under
review.

Without Improvement, the ANA Payroll Process Was
Susceptible to Errors and Fraud
The ANA payroll process at the corps, brigade, and kandak levels was a manual process
and, thus, susceptible to errors and fraud. Not having adequate staff to mentor the ANA
at the corps and lower levels made it difficult to detect errors and fraud. For example, an
ANA prosecutor identified payroll fraud at one corps; specifically, kandak GSG8
personnel altered the softcopy deposit reports to shift money into colluders’ accounts.
During a February 2011 internal control team site visit, a CJ8 FRO mentor observed how
the GSG8 personnel implemented the fraud scheme and developed procedures to detect
fraud for future site visits. However, CJ8 FRO personnel have been unsuccessful in
implementing the procedures because they have been unable to obtain the bank reports
from Kabul Bank. CJ8 FRO personnel should continue to work with the Ministry of
Defense, Ministry of Finance, and Kabul Bank to obtain ANA payroll bank reports and
verify payments made to ANA personnel.

In addition, without adequate staff and planning, it will take longer for CJ8 FRO
personnel to implement and reinforce proper business practices within the Ministry of
Defense–Finance and GSG8 offices and determine the controls needed to improve the
ANA payroll process. Instead of exhausting resources when documentation was not
                                                      available at a corps, CJ8 FRO
       Without improving the Ministry’s internal      personnel could have reviewed the
          controls, CJ8 FRO personnel cannot          payroll documents where they were
      successfully complete the mission to prepare    stationed and avoided a site visit.
    the Afghanistan government to sustain the ANA     Without improving the Ministry’s
       payroll process without coalition support.     internal controls, CJ8 FRO
                                                      personnel cannot successfully
complete the mission to prepare the Afghanistan government to sustain the ANA payroll
process without coalition support.


                                            22 

Recommendations, Management Comments, and
Our Response
B.1. We recommend that the Director, Combined Security Transition Command-
Afghanistan, CJ8 Directorate:

      a. Conduct a review of the staffing level of mentors for Afghanistan National
Army payroll processing and monitor the effectiveness of the new personnel to
determine whether additional personnel are needed.

NTM-A/CSTC-A Comments
The Deputy Director, NTM-A/CSTC-A CJ8, agreed and stated that a CJ8 ANA FMO
internal control team cell was created in July 2011 and was comprised of two U.S. Army
officers that support the GSG8 internal control team when deployed to the corps for
inspections. He said this cell was to travel to each corps four times annually to conduct
site visits.

In addition, the Deputy Director stated that CJ8 ANA FMO personnel were training
six contractors as corps finance advisors and expected them to be at their respective corps
by April 1, 2012. Finally, he said that CJ8 ANA FMO planned to reassess personnel
requirements once all corps advisors were fully trained and embedded with their
respective units.

     b. Develop procedures for planning the internal control team site visits. At a
minimum, ensure that the procedures include:

          (1) availability of payroll documentation and Afghanistan National
Army finance officers, and

            (2) mentoring for all levels of Afghanistan National Army finance
officers.

NTM-A/CSTC-A Comments
The Deputy Director, NTM-A/CSTC-A CJ8, agreed and stated that the establishment of a
CJ8 ANA FMO internal control team cell would enable more complete preparations for
site visits. Specifically, he said that the GSG8 internal control team would send a
checklist highlighting all requirements to the Corps G8 a few weeks before the visit to
ensure that corps personnel were ready for the inspection.

In addition, the Deputy Director stated that the CJ8 ANA FMO internal control team
officers would ensure that corps finance officers were mentored and able to assist with
issues and that the corps finance advisors would visit and mentor the lower level ANA
finance officers. This process was to be implemented by April 1, 2012, and would allow
for greater accountability.




                                            23 

      c. Request a partnership with Defense Finance and Accounting Service to
develop control procedures for the payroll process and for Afghanistan National
Army payroll auditing and mentoring.

NTM-A/CSTC-A Comments
The Deputy Director, NTM-A/CSTC-A CJ8, agreed and stated that his office would work
with DFAS personnel to the extent possible, but cautioned that the current Ministry of
Defense-Finance system was paper-intensive and that developing procedures to allow for
accountability while expediting payroll would be a significant effort, requiring trained
mentors and advisors.

      d. Continue to work with the Ministry of Defense, Ministry of Finance, and
Kabul Bank to obtain payroll bank reports and verify payments made to
Afghanistan National Army personnel.

NTM-A/CSTC-A Comments
The Deputy Director, NTM-A/CSTC-A CJ8, agreed and stated that his office continued
to enjoy a professional relationship with the Ministry of Defense, Ministry of Finance,
and Kabul Bank. He also said that NTM-A/CSTC-A CJ8 personnel were receiving
payroll bank reports from the Ministry of Defense and Kabul Bank, helping them oversee
the payroll process.

Our Response
The Deputy Director, NTM-A/CSTC-A CJ8, comments on Recommendations B.1.a
through B.1.d were responsive, and no additional comments are required.

B.2. We recommend that the Director, Defense Finance and Accounting Service
Indianapolis, when requested by the Director, Combined Security Transition
Command–Afghanistan, CJ8 Directorate, make the appropriate resources available
to the Combined Security Transition Command–Afghanistan CJ8 Finance Reform
Office, to adequately mentor the Ministry of Defense on developing controls on the
Afghanistan National Army payroll process.

DFAS Comments
The Director, DFAS-Indianapolis, stated that DFAS, in coordination with the U.S. Army
Financial Management Command, would establish an agreement to provide assistance in
mentoring the Ministry of Defense on developing controls for the ANA payroll process
upon request from the Director, CSTC-A, CJ8 Directorate. The estimated completion
date was March 1, 2012.

Our Response
The Director, DFAS-Indianapolis, comments were responsive, and no additional
comments are required.




                                          24 

Appendix A. Scope and Methodology
We conducted this performance audit from December 2010 through December 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To accomplish our audit objectives, we coordinated with or interviewed officials from
USD(C)/CFO, DFAS, U.S. Central Command, and NTM-A/CSTC-A. We obtained and
reviewed Public Law 111-118, “Department of Defense Appropriation Act, 2010,”
December 19, 2009, and Public Law 111-212, “Supplemental Appropriations Act, 2010,”
July 29, 2010, as they related to the ASFF. We also obtained and reviewed
USD(C)/CFO, Defense Security Cooperation Agency, and NTM-A/CSTC-A ANA
guidance for payroll contributions, reconciliation, and distribution, as well as
NTM-A/CSTC-A ministerial development guidance prepared to mentor Ministry of
Defense-Finance and GSG8 personnel.

We conducted a site visit to NTM-A/CSTC-A at Camp Eggers in Afghanistan. We met
with officials from CJ1 (Personnel), CJ2 (Intelligence), CJ3 (Operations), CJ6
(Communications), and CJ8 (Comptroller) offices; ministerial ANA development
advisors; and officials from the Ministry of Defense–Finance and GSG8 offices to gain
an understanding of ANA payroll and mentoring processes. We also accompanied the
CJ8 FRO advisor on a site visit to the 201st Corps to observe how the internal control
team inspects and audits the ANA payroll process and mentors ANA corps finance
officers. In addition, we obtained ANA payroll source documents for the Central Kabul
units, AFMIS summary-level data, and SY 1388 and SY 1389 payroll reconciliation
worksheets from CJ8 FRO personnel to determine the accuracy of ASFF funds reconciled
and distributed for ANA payroll.

We reviewed ANA payroll supporting documentation for the first quarter of SY 1389
(March 21, 2010 through June 21, 2010). Specifically, CJ8 FRO personnel provided
ANA Central Kabul Unit M16 forms for the first quarter of SY 1389. We translated and
totaled all AFMIS category codes on the M16 forms. We used NTM-A/CSTC-A and the
Ministry of Defense agreed-upon rates for the first quarter of SY 1389 to determine how
much NTM-A/CSTC-A should have reimbursed the Ministry of Defense for ANA
payroll. We compared the totals for each AFMIS category code to an AFMIS report,
provided by the Ministry of Defense, of payroll expenses for the ANA Central Kabul
units for the first quarter of SY 1389.

In addition, we obtained and reviewed the ANA Central Kabul units’ first-month
SY 1389 M41 forms for individuals with “CIV” identification numbers and determined
the amount paid for the number of civilians reported under AFMIS military payroll codes
21102 (Military Officers) and 21103 (Armed Forces). We also determined the




                                           25 

percentage of total expenses that CJ8 FRO reimbursed the Ministry of Defense, and we
used the percentage to estimate the amount of the civilian payroll CJ8 FRO reimbursed to
the Ministry of Defense in the first month of SY 1389.

We determined the universe of ASFF funds distributed to the Ministry of Defense for
ANA payroll from April 2009 to January 2011 by obtaining supporting documents for
payments made by DFAS Rome and Indianapolis to the Ministry of Finance in support of
ANA payroll. We reviewed the CJ8 FRO SY 1388 and SY 1389 ANA payroll
reconciliation provided to the Ministry of Defense. Further, we used the payment
documentation received from DFAS personnel and AFMIS data provided by CJ8 FRO
personnel to recreate a SY 1388 and SY 1389 payroll reconciliation. We compared our
reconciliation to the CJ8 FRO reconciliation to determine whether it was accurate and
adequate.

Upon completing our initial fieldwork, we coordinated with NTM-A/CSTC-A officials to
address concerns we observed during our audit. To validate factual accuracy, we also
provided a discussion draft to DoD officials discussed in this report.

Use of Computer-Processed Data
To perform this audit, we used data from AFMIS, which is the official accounting system
of the Ministry of Defense. We used AFMIS data when re-creating the CJ8 FRO
SY 1389 ANA payroll reconciliation. We assessed the reliability of the data by
translating the Ministry of Defense payroll form source documents from Dari to English
and comparing the amounts on the source documents to the amounts entered into AFMIS
for the first quarter of SY 1389 Central Kabul units. Although we identified errors
between the source documents and AFMIS data, we determined that they were
immaterial and that the AFMIS data were sufficiently reliable for the purpose of our
audit.

Prior Coverage on the ANA Payroll and Salary Support
During the last 5 years, the Special Inspector General for Afghanistan Reconstruction
(SIGAR) has issued two reports discussing Afghanistan National Police payroll and
salary support to Afghanistan government employees. Unrestricted SIGAR reports can
be accessed at http://www.sigar.mil.

SIGAR
SIGAR-Audit-11-10, “Despite Improvements in MoI’s Personnel Systems, Additional
Actions Are Needed to Completely Verify ANP Payroll Costs and Workforce Strength,”
April 25, 2011

SIGAR-Audit-11-5, “Actions Needed to Mitigate Inconsistencies in and Lack of
Safeguards over U.S. Salary Support to Afghan Government Employees and Technical
Advisors,” October 29, 2010




                                          26 

Appendix B. Key Aspects and Control Weaknesses in the ANA Payroll Process
Figure B-1. ANA Payroll Attendance                                                                        Figure B-2. ANA Payroll Forms

                                            Key Aspects                                                                                      Key Aspects

                                     Attendance      Financial                                                     Kandak
                                                                                                                             Payroll       Brigade
                                                                                                                                                      Payroll       Corps
                                                                                                                                                                             Payroll 
                           ANA G1                                  Pay Roster                                                Forms                    Forms                  Forms
                                       Roster          Staff




                                                                                                         The financial management staff at the ANA kandak, brigade, and corps manually creates
     At the ANA kandak, brigade, and corps levels, ANA G1 (Personnel Office) officers take               by pen and paper or by computer-based spreadsheet the M41 pay roster and M16
      daily counts of ANA soldiers and officers. Individuals present, absent, or on leave are             coversheet forms.

      tracked in the attendance rosters, which are provided to financial management staff to build

      a pay roster, called an M41 form. 
                                                             	 The M41 form includes an individual’s name, position, identification number, base pay,
                                                                                                         incentives, deductions, net pay, and bank account numbers. The M16 form is a coversheet
                                                                                                         with all personnel on the M41 form for a respective kandak, brigade, or corps.

                                                                                                      	 The corps finance officer creates three copies of the approved pay rosters, one copy is for
                                                                                                         the finance officer’s records and the other two for the mustofiats, which are regional
                                                                                                         branches of Ministry of Finance.


                                        Control Weakness                                                                                 Control Weakness

                                                                                                                    Kandak
                                                                                                                              Payroll       Brigade
                                                                                                                                                      Payroll        Corps
                                                                                                                                                                             Payroll 
                                     Attendance      Financial                                                                Forms                   Forms                  Forms
                           ANA G1                                  Pay Roster
                                       Roster          Staff




                                                                                                         Kandak, brigade, and corps finance officers create the M41 form for their unit based on
  	 According to ANA finance officers, incentives and entitlements are recorded by the kandak,           G1 attendance records. This creates a separation of duties risk. Specifically, the ANA
     brigade and corps G8 officers based on personal knowledge of soldiers’ accounts and                  finance officers have the ability to influence inputs and outputs of the payroll process.
     certificates provided by the soldiers. G8 officers depend on the attendance records provided
     by the G1 officer to make the payroll forms. However, the G8 officer cannot verify through       	 The manual nature of the ANA payroll process makes it susceptible to errors.
     any system or documentation that soldiers are entitled to the incentives or entitlements.           Specifically, ANA personnel creating M41 forms may miscalculate base pay, incentives,
                                                                                                         taxes, and pensions.
  	 Some ANA identification numbers on M41 forms are not unique. This leaves the ANA
     payroll process vulnerable to duplicate payments and ghost soldiers. In addition, this creates   	 In addition, the ANA does not have a process in place for easily identifying individuals
     significant concerns when trying to automate and standardize the ANA payroll system.                responsible for creating payroll documents and holding them responsible for errors.
                                                                                                         M41 and M16 forms require between 25 and 35 signatures, and many are not legible.




                                                                                                                                                      27 

Figure B-3. Approval and Financing                                                                   Figure B-4. Pay Delivery
                                          Key Aspects                                                                                          Key Aspects
                                                                                                                                                                                  • EFT, or
                                                                                                                                                      • One Check 
                                                                  Two                                             Ministry  • Two Checks                Is for EFT 
                                                                                                                                                                                  • Receive 
                                                                                                                              Issued                                  Soldiers      Cash by 
                                    Payroll          Ministry                                                        of                       Banks     Payment
                                                                                                                                                                      Are Paid
                           Corps
                                                    of Finance   Checks                                           Finance
                                                                                                                            • SoftCopy                                              Kabul Bank 
                                    Forms                                                                                     M41 Forms               • The Other                   Mobile Pay 
                                                                 Issued                                                                                 Check Is                    Team
                                                                                                                                                        Cashed




                                                                                                         The corps finance officer takes one check issued from Ministry of Finance to the Central
     Once the Ministry of Finance personnel review and approve M41 and M16 forms, they                   Bank, which in turn electronically transfers funds to private banks, such as Kabul or AZIZI
      prepare and issue two checks to the corps finance officer. One is for delivering pay by EFT;        Bank. In addition, Ministry of Finance provides the banks a softcopy of the M41 and M16
      the other is for securing cash to deliver to the ANA without bank accounts.                         forms for EFT processing and payment.

     The ANA finance officer takes the two checks to the Central Bank for processing.                   The other check is cashed at the Central Bank, and the corps finance officer distributes the
                                                                                                          cash to the soldiers.

                                                                                                         For ANA units who do not have access to banks, Kabul Bank offers to send mobile pay
                                                                                                          teams to pay the soldiers in cash.



                                      Control Weakness                                                                                       Control Weakness
                                                                                                                                                                                  • EFT, or
                                                                                                                                                      • One Check 
                                                                  Two                                             Ministry  • Two Checks                Is for EFT 
                                                                                                                                                                                  • Receive 
                                                                                                                              Issued                                  Soldiers      Cash by 
                                    Payroll          Ministry                                                        of                       Banks     Payment
                                                                                                                                                                      Are Paid
                           Corps
                                                    of Finance   Checks                                           Finance
                                                                                                                            • SoftCopy                                              Kabul Bank 
                                    Forms                                                                                     M41 Forms               • The Other                   Mobile Pay 
                                                                 Issued                                                                                 Check Is                    Team
                                                                                                                                                        Cashed




                                                                                                         Softcopy M41 forms provided to banks for EFT processing and payment are susceptible to
     ANA corps finance officers are provided two checks for issuing payroll. However,                    change before to bank processing. The ANA does not have adequate controls in place to
      transferring funds electronically between the Ministry of Finance and Central Bank can              ensure that the transfer of information is secure and without error.
      reduce the risk of fraud or theft.
                                                                                                         The corps finance officer has the ability to secure cash from the Central Bank to pay soldiers
                                                                                                          if necessary. However, this leaves the cash susceptible to theft. Kabul Bank mobile pay
                                                                                                          teams have the ability to perform the same function as the finance officer, which limits the
                                                                                                          risk of theft.
North Atlantic Treaty Organization Training Mission-
Afghanistan/Combined Security Transition Command-
Afghanistan Comments



                                              HEADQUARTERS
                                      NATO TRAINING MISSION - AFGHANISTAN
                             CO"-'BINED SECURITY TRANSITION COMMAND _AFGHAN iSTAN
                                             KABU L. AmHANISTAN
                                                 APO AE 09356
             REPLY TO
             ATTENTl CN OF




       NTM-N CSTC-A                                                                 9 January 2012


       M eMORANDUM THRU

       United States Forces - J\fghanistan (CJIG), APO AF. 093Sn
       United States Central Command (CCIG), MacDill AFB, FL 33621

       FOR Ofiice of the Department of Defense - Inspector General 4800 Mark Center Drive,
       Alexandria, VA 2235 0- 1500

       SUBJECT: NTM-A/ CSTC-A Response to lht= Draft Report "Distribution of Funds a.nd
       Mcntoring ofFinanc\; Officers for {he Afghanistan National Army Payroll .\Ieed Improvement"
       (Project No. D2011 -DOOOFR-0089.0(0)



                                   Click to add JPEG file
       1. Reference: Draft Report, dated 22 December 20 II, Department of De fense Office of Inspector
       General, subject as above.

       2. The purpose of this memorandum is tn respond to the draft report with the following
       comments; NTM-A/CSTC-A CJ8 concurs with all fi ndings and recommendations. Details of
       CJ8 response arc enclosed .




      Enel
      NTM-NCSTC-A CJ8 Comments
                                                 ~E~NF
                                                  Colonel, US Army
                                                  CJ 8 Deputy Director




                                                                  29
                                                                                                                Final Report 

                                                                                                                 Reference






             I)R.An REPORT - 1)01) IG P"'jre' No. 1)2011 -I)OOOFR-0089.000
  "Distribution of Funds :md Mentorin g of Fin:mc.'c Officers for the Afghanistan National
                           A mlY Payroll Nced Impro\'cmcnt"

                                  NTM-A/CSTC·A
                         GENERAL COMMENTS ON THE REPORT


NTM -A/CSTC-A C.18 {;enern l Comments

TIle r¢port rdcrs to th¢ NTM-N CSTC- CJ8 Comptro ller Office. NTM- CSTC- CJ8
recommends the report reference the fonnal title. Directorate for Comptroller and Progrruns,                  Revised 

CJ8, to avoid confusing the CJ8 Directorate with the CJ8 Comptroller, a separate di vision within             Pages i, ii, 2, 13, 23 

CJ8 with no direct ANA mentoringor payroll oversight responsibilities.                                        and 24 

TIle report refers to the CJ8 FimUlcial Refonn Office ( FRO). Subsequent to the draftin g of this
report, the FRO was renamed the CJ8 FimUlc ial Management Oversight (FMO) offi ce as a n.'Suit
or the NTtvl-A I CSTC-A reorganization. 'nle FMO remains a di vision within the CJ8                           Revised 

Directorate and is directly involved with ANA Il1 cntoring ruld payroll oversight.                            Pages i and 2

NTM-A /CSTC-A C.18 Commen ts on            ReC'Onllncnd ~'tions


                               Click to add JPEG file
Finding A. NTM-AICSTC-A CJ8 FRO did n OI adcqulllcly rccondJe :md disll;bule ANA
PIIYl'oll Funds

Rccollllllcnd:lIiolls:

La. Develop procedures to ensure that consistent .md adequate reconciliations of funds
advanced for the Afghani stan National Anny payroll are bein g perfonned.

   NTM-AICSTC-A ResIJolIse:

   NTM-AI CSTC-A CJ8 cOllc"rs wilh the fouJiligs alld associated recommendatioll.
   Findi"gs illdllded:
   I, Us(!(1 incorrect rates to calclilate payrollfllluis which remlted UJ errolleolls
   reconciliatioll amlfimd adl'flllces to tl.e ANA.
   1. Made mathematic{,1 erl'Or~' 10 calclllate ANA payrollfimd!1' fllUl sIIbmin ed erroneous
   rel/tlestfor fi,"d tralls/ers.
   3. Ill e/lllied Ci.,iliall Payroll ill calclliatiolls which ol'erstatedfiuul execlltioll amI adl'allCl!s
   10 'h e ANA by SS2SK.
   4. Erron eoll)'<~ reported m 'eT (II1l1 m"ler pay",elll~' o/payrollflllltu·.

   Actio", Oil Recommemlatioll:
   The NTM-AICSTC-A CJ8 Afglllllliflall Natiollal ArmJ' (ANA) Fill allci{,1 A/tmagemellt
    OW!rsiglu (FAIO) office lUIS taken (11'0 (IC1iom ill support o/the (Ibm'e recommendation:
    (/) creatioll 0/ aflmd trackillg spreadsheet alld, (2) rel'o'ioll o/th e StamJard Opermillg
    Proemlllre (SOP) 10 fa cilitate {llllmerly roc{Jllcilintiolls.


                                               Page I of8




                                                                  30
             I)R.An REPORT - 1)01) IG P"'jre' No. 1)2011 -I)OOOFR-0089.000
  "Distribution of Funds :md Mentoring of Fin:mc.·c Officers for the Afghanistan National
                           AmlY Payroll Nced Impro\'cmcnt"

                                   NTM-A/CSTC·A
                          GENERAL COMMENTS ON THE REPORT


    TI.e/1II1l1 tmckillg ~'preadj'''eet requires el'ery trlllm.etiollto be elltered amI lIIw/yzed before
   t" e request call be apprm·ed, reducillg t"e c"all ce 0/ mat"ettlluical error~·. It aiso breaks
    om accolllllillC codes, ellsuring ci"iliall paJ'rolifigures are excluded/rom ll. e cllICIIlalions.
   After CJ8 .4.}\I; 1 FlYJO personnel have rel'ieH'ed th e pllJlrolifigures usillg the spreadsheet,
   /lInding requestltllu·t be appro,'ed by the CJ8 FJlJO Chief and CJ8 Director prior to
   mbminiollto DFAS. r"e mamlatory lise o/t"is ~"preill/s"eet by CJ8 ANA FMO persoflllel
    will prOl'ule up-to-Ilate status of/Will execfltion alld will ensure COlIsutet.t a",' ade'l""le
   recolld/in/iolls 0/ANA pl~,;roll/"Jlds. The spreads"eet was completed l\1ard, 201 J amI is
    cllrrelll{I' being (Il'ed by CJ8 ..tINA FMO personnel.

   CJ8 ANA F/v/O aud ComptNJller dll'isiolls are also re,Jisillg t" e ClIrrelll SOP witlt all
   eJ.peaf!11 completioll date 0/ I April 20 12. T"e SOP will clarify proper payroll rel'ietl'
   prlJCej'!u!~' amI identifj' "0111 10 recollci/e payroll eJ.1Jelldilllres to pre,'ent t"e recurren ce of
   tir e abol!efilldincs,
                                Click to add JPEG file
I.b. Develop procedures to cnsure that correct rates, verification of arithmcti c, and onl y payroll
rel ated transacti ons are be ing used during the payroll distribution process.

   NTM-AiCSTC-A Response:

   NTJ\lI·AlCSTC-A CJ8 COIICIITl" with thefuulillgs alld aj"sllciatetl recommendation.
   Fi"dings illcluded:
   I, USfXl illClJr,.ect reimbursement rates 011 pay,.l1/[ resulting ill a nel error II/S5.1 M payrll/[
   .. IlIItieradl'all ce".
   2. ~/ade arit"metic errors to illelude rOllllllillg w"id. resulled ;11 596K lIIulerslatement ill
   aemal funds provided fO,. ANI! p/~"roll.
   3, Juelildetlnoll-payroll related transactions,

   Aettolls Oil RecommelldllliOl':
   TI. e NTM-AiCSTC-A CJ8 ANA FMO office has take" two actiolls ill suppOrt o/th e abUl·e
   recommendatioll: (1) creatioll of a/lIIl1ltrackiJlg ~pread~ilr ee/, III.d (2) rel'isioll oftir e
   SOP to facilitate quarterb' recollciliariom',

   Tire nell/fUluls trtlcki"g ~p,.eadslrf!et was createllto facilitille qlulTterly reconciliatiolls 11111/
   ulclllIlesformu/as to prf!\'elll cillculation and rates mistakes. J, alsll breab 0111 fwuliJ'g
   cm/a to ellsure 0111)1payroll-re/flled trmlsllctiollS are iJ.e/luled A mOIlIll~' ill tire
   spreadsheet are ill " dollars " illstead of "thollsa"d of dollars " to aMid roulldiJ'g mistakes,
   FIWdiJIg recollciliatll}IJS are also COlIIllI Cled separately/or each blulget code (Codes 21, 22,


                                               Page 2 of8




                                                                  31
             I)R.An REPORT - 1)01) IG P"'jre' No. 1)2011 -I)OOOFR-0089.000
  "Distribution of Funds :md Mento ring of Fin:mc.·c Officers for the Afghanistan National
                           A mlY Payroll Nced Impro\'cmcnt"

                                     NTM-A/CSTC·A
                            GENERAL COM MENTS ON THE REPORT


   am1 25). Ut e spreadsheet was compleled 0 11            l~/ardt   201 I alUl is Clirreltl(.1bei.ng fl setl by
   CJ8 ANA FMO personnel.

   CJ8 AJ\~I FA-fO alU/ Comptroller fiil1isiolls lire also rellisillg Ihe currenl SOP witll lIlI
   e.\pected completion date 0/ J April 1011, Tile SOP will clarify proper payroll review
   procenf!l' alld ideltlW' how 10 recoll cile payroll expenditures to prel'eltl the recurrence 0/
   Ih e ubo'1e/mdiltgs.

l.c. Deve lop procedures to ens ure that correct amount of funds being advanced are accurately
reported to the Ministry of Defense.

   N TM~A/CSTC-A          f?e1tJOIlse:

   NTM~A/CS TC-A        CJ8 COII Cllr!i wilh Ih e-Jimlillgs 1II1d U!isoclllied recommendalioll,
   Fillt/illgs uldllt/et/:        Click to add JPEG file
   1. Errolleolls reports to l~/oD Ito/ matching CJ8 ANA Fi\-/O reconciliation wlticlt resll/rell
   UI SJ8.5M mtderflmt/iltJ;.

   Aeliom' O tt Ilecommemltlfion:
   Tlt e rel'isell SOP will Ilemil procetlllrf!l' ro emmre reconcililllioll mlllcll es the ojJiciul
   c1oc",mml !ielll If/tlte Aflltu'try 0/ De/elise (MoD) , Before any flllldillg is rransferred 10 tlt e
   MoD, th e/ollowing !itepS tmu'l OCl.'llr:

             -   }:.;';pe"dililres by Budgel Code ",ust be reconciled (i" ilimed j\l/arclr 1011)

             -   CJ8 DireclOr musl semi a leller i,,/orming lir e MoD- Finance ofth e upcoming
                 paymenl: letter must be co-signell by MoD-Fillllllce

             -   Mblister 0/ Fbtflllce (.Jti/OF) mUSf semi 1111 IIcceplallce letter /() CJ8 Director
                 (illitillfed],4 quarter SY 1390)

   Oll~V   lI'hell th ese steps lire l.'Ompleled CIlII   NTM-A/CSTC~A        CJ8 request [)({Ilmellf from
DFAS.




                                                   PageJof 8




                                                                       32
                I)R.An REPORT - 1)01) IG P"'jre' No. 1)2011 -I)OOOFR-0089.000
     "Distribution of Funds :md Mento ring of Fin:mc.'c Officers for the Afghan ista n National
                              A mlY Payroll Nced Impro\'cmcnt"

                                        NTM-A/CST C·A
                               GENERAL COMMENTS ON THE REPORT


2.    Dev~ l o p   written procedurl!s to ensure there are adequate reviews of the quarterly
reconciliati ons to pre vent futu re errors.

      N TM -A/CSTC-A I?espollse:

      NTM~A/CSTC-A          CJ8 C{JllCllrs wilh Ih e jimlillgs alld anociared recommemlarioll.
      Fimli" gl' illcluded:
      I, USI!(I incorrect rates to calclllfite payroll filluls which resulted ill errolleous
      recoll diJiarwlI fllldfimd adl'allces to th e ANA,
      2, Made matltematic{II error~' to calculate ANA jJ{(llroll fuml.f alld .m bmi« ed erron eou",
      request for filllt! tram/en-.
      3. I" clllded Cb·i/iall P(~rroll ill ca/clliadom; which m .ersUlledfillul executioll ami adl'flJl c;es
      10 'h e ANA ~,,$525 K.
      -I. Erroll eoll s~" reporte{/ over lIlItl wilier paymelJlS ofpayroll/tm (il·.
                                    Click to add JPEG file
      Actiom ' 0 11 f(ecommem/atioll:
      The N TM-A / CSTC-A CJ8 ANA FJ\JIO 11lI~· tak en three actions ill support oflhe abm'e
      recommemltlfioll: (1) revision o/th eSOP. (2) illlrodtlctioll o/ Corps FiIllIllCeAt/l'isorl'.
      ami (3) del'elopm ent 0/ automall!(l accountillg systems,

      TI, e CJ8 ANA FfltlO office U· rel.ising the SOP lI'ith all e.\.p ecJe{/ ClJlIJple/ioll date 0/1 April
      1011. 11,e SOP wi/J clarify proper payrtJ/J rel'iew procesl'e's and idmllify procedllres fiJr
      reconciling payroll ('..\pell dilllres to prel'em til e recurrellce of til e abOl'e jilldillgs and
      ensure cominuil)l ill CJ8 procedures.

      III addilioll to lite SOP, Corps Finance A (h'u'ors are being trailled to facilitate a derai/e{1
      rel'iew process. Tll ese ad"isor~' will be;1I place by I A pril 2012. Ollce the adl'isors are ill
      p lace, NTM~A/CSTC~A CJ8 It'illjinalize procedures to (!Ilmre I'erification o/salary
      payments.

      Last~J" a lI ew system il' beillg {le"I'e/oped to gi"t! CJ8 ANA FMO mltlthe Corp~' access to
      m ore[ulfIllcial date,. This system, knoll'n fIl' 8IUlget Preparation alld £.\peJulitllre
      Tra cking Dmabase (BPET-D8), is (III electronic, structure,1 budget process delleloped by
      (III A/gila" l\1loF COlltmcwr. IllI'ill gb'e (!IIcll Corp~' 1111(1 CJ 8 ANA FMO personn el til e

      obiluJ' to pull defllile{/fmallciaJ rep{}rrs, 1101 lll'aiJable I'ia tile Afgll(llli~·tall Finam:ial
      Managem ent Ill/ormatioll System (AFM IS). Expectl!(/ complelion dllte 0 11 BPET- DB allli
      A FAnS access is by I A pril 2011.



                                                  Page 4 of 8




                                                                   33
             I)R.An REPORT - 1)01) IG P"'jre' No. 1)2011 -I)OOOFR-0089.000
  "Distribution of Funds :md Mento ring of Fin:mc.'c Officers for the Afghanistan National
                           A mlY Payroll Nced Impro\'cmcnt"

                                  NTM-A/CST C ·A
                         GENERAL COM MENTS ON THE REPORT


3. Perfonn quarterly detailed- leve l testin g of the Min istry of Defense source documents to
ens ure that the Afghani stan National nn y payroll records in the fghanistan Fi nancial
M;magement Illfonnation System are accuf<ltely reported before advancing funds to the Ministry
of Defense.

   N TM-.41CS TC-A I?es"ollse:

   N TM-AICS TC-A CJ8 cOllcurs with th e fuulings aml llSsociatetl recommentlalion.
   Fint/iugs included:
   J. Lack 0/ tletailell-Iel'el testiug 011 summary leI'eI eJ.1Jenses be/ore atlwlIlcillg ANA pa)'ro/l
   toMoD.
   2. Lack o/knowledge of DSCA policy (Sep 2007) 10 ntulit th e reimbursemelll rogmm.

   Actiolls 0 11 Recommelltfatioll:
                               Click to add JPEG file
   Th e N TM-IVCSTC-A CJ8 1lNA FMO office has take" two actiom' ill support ofthe abm·e
   recommelltlation: (I) j"tr(J(llld ion o/Corp!" Finau cial Ach'u'orsl ami (2) a(."Cesl' lIIU/
   Ol.ersigl" 0/ alllOma/el/ accOimtiug sjlstenu·.

   CJ8 ANA FJ\!IO perl'olmel are cllrrelllly training Corps Fuum cial A tll·ison' to work within
   th e su: Corps, 11,eir tllll;~' will illcllufe tile Iletailetl-hwel rel'iew 0/ source tlocmnellll' to
   ensure the A/gllllIIUUUJ NatiOlwl A m~I' payroll records are accurate, These lIth'uors wi/l
   augment FMO stal/ alld allolVlor greater m·ersighl. The ad~'iso 1'l' atl{l CJ8 ANA FMO
   personnel will also rel'iew th e payroll documellts/rom MoD {I( alllel'els 10 u,elutle Corps
   wul be.low 1m a mollth(v basis. This will elU'lIre. proper accolllltability alld accuracy 0/
   reports I'ia comparison o/reportl' alll/Irailling 0/ANA jinallce officers 0 11 proper
   prOCEdures, N TA'I-A/CSTC-A CJ8 expecls tllis additio"al ol'ersig/u to be implemem ed 110
   later thall I April 2012,

   CJ8 A lVA fi HO perl'ollllel are clfrrellt(I' workillg Hitll til e JHoD to gaill flcass to A PM/S,
   wh icll will aI/ow more ill-Ileplh rel'iew o/the da((l. Rel·iell'S are currently don e l·ia Iferailed
   A FAllS reports produced by th e J\loD-F. Obtain urI: access to ;.IFJH/S or BPE T-DB will
   alloH' more l·isibi/iIJ' illto J\lloD data, Complflerized Payroll SYl·tem (CPS) will prm·ide
   another mefllrs to I·eri/y Ih e data alld inter/ace wi",  th e penwllI,el tlulIllIgemerrt sJ'l'l enL
   Accen to these systems will h elp NTM-A/CSTC-A CJ8 ,.erify persolllleillre being pfritl
   correcr(v, alit/will minimize ,lte mut/ber of gllO!o" aCCOll/lts alltl elliumce transparen cy atltl
   accountabilitY ;1I 'h e payroll l}'stem, CPS is e>.pecred 10 be implemellledllo later thall
   Ocrober 2012.




                                              Page 5 of8




                                                                34
             I)R.An REPORT - 1)01) IG P"'jre' No. 1)2011 -I)OOOFR-0089.000
  "Distribution of Funds :md Mento ring of Fin:mc.'c Officers for the Afghanistan National
                           A mlY Payroll Nced Impro\'cmcnt"

                                   NTM-A/CST C·A
                          GENERAL COM MENTS ON THE REPORT


4. Obtai n an offi cial decision from the North Atl anti c Treaty Organization Trainin g ~'Ii ss i on -
Afghanistan/Combined Security Transition Command - Afghan istan Command as to whcther it
can appropriately p.lYcivilian salaries.



    N TM-A/CSrC-A CJ8 COIICllr!l wilh th e recommemlalioll,

   Currently , ci"ilitlll emploJ'ee!,. are 1101 paid/rom ASFF fllllds, Ci,·iliall salaries lire paid by
   th e GOl'emmeut o/th e Islamic Republic 0/ A/gh allistall (GIRoA) ullder btulgel cOiles
   21100 alld 2 /1 0 / , which are IUJtfillu/ed bJ' th e A/gluIIILYftllJ Security Forces Fuml The
   tUM Corps Fillaucilll A (b'LYon will also be able to col/fum a .·ilitms are 1I0t I'ecei"illg us­
   fimded pay. We e.\pect to rece;I'f!. official glli(lallce/rom N TNI -A/CSTC-A leadership Oil
   civiliall pay l·lllrtl'ie.\· /~" I April 2012.
                                Click to add JPEG file
Finding n. NTM -A/CSTC-A CJ8 FMO aUaincd some S U C('($S through ANA payrol.l
mentol;ng but inlpl'o\'cments would acJtit"vc mol'c bmefits

Rccommcnd:ltion s:

l.a. We recommend that the Director, Combined Security Tran sition Command - Afghani stan,
Comptroller Office conduct a review of the stafting level of mentors fo r Afghanistan atianal
Aml Ypayroll processing and monitor the efTcctiveness o rthe new personnel to detCnlline
whether additional personnel are needed.

    N TNf-A/Cf}TC-A Resnrmse:

    N TM-A/CSTC-A CJ8 cOllcun with ,he fmdillgs alld (U'sociatell recommeJ,datioll.
    Fimlillgs iJldmled:
    I. Lack o/sire l.isilS ro rhe Corp!)' ami be/oil' lel'el-each Corps I'isited twice per year.
    2. Lack 0/ adequate staffro I'isit nil sites- olll)l olle pan-time melllor.

   Actiom' Oil /(eco",,,,eml(lrioll:
   The N TM-AiCSTC-A CJ8 ANA FA'fO has trlkell IllY) actiolls ill support o/th e abOl'e
   recomme"dation ,' (I) estrlb/ishmelll ofanlCT cell, and (2) ;lIIrodtlClioll o/COl'PS
   Financial A d,'isol's.

   A CJ8 ANA FMO l"temal Control Tell", (ICT) cell was created ill J,,~v 20J I. This cell.
    compri!ied o/tH'O US Army OjJicerl', mpport the GSG8 l CJ' wh ell deployed to rhe Corps
   /01' illspecriOlu. This cell tl'fllleis to each Corps 4 time.\· a",,,,all)l to com/Il cr site I'isits.

                                               Page 6 of8




                                                                 35
              I)R.An REPORT -          1)01)   IG P"'jre' No. 1)2011 -I)OOOFR-0089.000
  "Distribution of Funds :md Mentoring of Fin:m c.'c Officers for the Afghanistan National
                                 AmlY Payroll Nced Impro\'cmcnt"

                                    NTM-A/CSTC·A
                           GENERAL COMMENTS ON THE REPORT


    I" addition, CJ8 ANA FMO personnel are UI the process oftmuluig six contmC/ors as
    Corp!J' Finance A dvisors. Th ese Corps adl'isors are exp eCIed tIJ be at the Corps by 1 A pril
    2012. Wh ell all Corps Fillallce A dl'isors are establis h ed illfh eir respectil'e Corp!J', they will
    anistlh e CJ8 ANA FA10lCT,

   CJ8 ;lJ\~1 Flv/O will reassen perl'mlll el requirem ellls Ollce all Corp!J' adllisors are /lilly
   traul etl alld embedded It'ith their respectil'e ""its,

l ,b, \Ve recommend that the Director, Combincd Security Transition COIllI1l,U1d - Afghanistan.
Comptroller Officc deve lop procedures for the pl<mlling of the intemal contro l terun s ite vis its,
At a min imulll, ensure that the procedures include :

            (I)     vailability of payroll doclImentati on and Afghanistan National Ann y fi nance
                  officers; and
                                Click to add JPEG file
            (2) Menl oring for all levels of Afghan istan N<lli onal Army finance officers.

   N TM-AI CS7'C-A I?e.<mmue:

   N TM-AICSTC-A CJ8 cOllc"r!J' Wilh Ih e fulllillgs allll associated recommellllatioll.
   Fimlillgl' included:
   I, U"m'ailabilit.y of payroll documellls d"ruiC Corps site 1';SitS.
   2, ANA Fiuance Officers Iwt OJ'ailable during l'ile ~'isitl',

   Actiolls Oil Recommemltltioll:
   Tire NTN/-AI CSTC-A CJ8 ANA FMO office Iras taken ht'O actiolls ill !J'uppor, o/tlr e abol'e
   recommendation: (1) estnblisltmellt of an ICT cell. and (2) ultroduClio" of Corps
   Fillaucial A dl'isors.

   The establislmumt (if II CJ8 ANA FMO ICT cell ellables more complete prep(lTat;(JIIsfor
   l'ite ";siIS, A ch ecklo,t high/ightillc 1111 re(luirenlt!lltl' is !I'elll by 'he GSG8 IC T to 'he Corps
   G8 II few Hleeks prior to the "isit, to ells ure Corps persollnel are reatly for th e uupeClifJII ,
   Pay roll (IOCllmellllllioll is (",ailuble wil en reqllired. alld staff IIelp with ,lie r~';ew (I!J' mild,
   (IS possible. 7111! CJ8 ANA FJ\IIO Ie I' officers ensure Corps Finance officers are m el/tored
   (111(1 able to assist with isSllel',



    The Corps Finance A dl'lsors II'lll"isir (111(1 m elllOr th e lower let'el ANA Fimlltce officen "
    This process will be implemented by 1 A pril 2012 amI will (llIow for gre(lter (l ccollJlmbility.



                                                 Page 7 of8




                                                                  36
             I)R.An REPORT - 1)01) IG P"'jre' No. 1)2011 -I)OOOFR-0089.000
  "Distribution of Funds :md Mento ring of Fin:mc.'c Officers for the Afghanistan National
                           A mlY Payroll Need Impro\'cment"

                                   NTM-A/CSTC·A
                          GENERAL COM MENTS ON THE REPORT


I.c. We reco mm~nd thal lhe Director, Combined Security Transition Command - Afg.hanistan.
Comptroller Office request a partnership with Defense Finance and Accollllting Service to
develop control procedures ror the payroll b,mk reports and verify payments made to
Afghanistan National Army personnel.

   N TM-.41CSTC-A I?es" ollse:

   N TM-AICSTC-A CJ8 concurs wilh the recommendation.

   N TM-AICSTC-A CJ8 will work lI'itlt DFAS personnel/o th e extent possible, bll' c OlltiollS
   IlulI til e CUTrell( MoD-F !')'sl em is paper-ultelU·i ,·1!. ami ,lie prtJCe!iS If} tlel'e/op procetlllr~' to
   allow/or accOItIIllIbilily while eJ.pedilillg PII)'roll is sigllific(ml. requiring tmul ed m elltors
       mil·isors. Furth er, Ih e l\IJoD-F procen does 1101 resemble th e D FAS II igh(J~ aulommed
   (111(/

   process Ihat (lilows for cross ch eckin!: alld double comrols, 11 is doubtful th e J\lfoD-F
                                 Click to add JPEG file
   procf!j's(!j' will relld, a !I'tate lIul/lI'o,,/(/ allow DFAS to fllily lew!race ;ts sopllu'ticatetl
   accolllJtillg processes;1I all Afghall system wi/hout sigllificallt ulI'estmellt o/time alld
   penlOllll ell~y DFAS,


I.d. We recommend that the Director. Combined Security TnUlsiti on Command - Afgh'Ulistan.
Comptrol ler Offiee continue to work with the ~'I inistry of Defense, Min istry of Finance, and
Kabul Bank to obtain payroll bank re port s and ve rify paym ents made to AfglHUlist:.Ul Nati onal
Anny pcrsOlUlcl.

   N TM-AICSTC-A UeslJOIlse:

   N TM-.41CSTC-A CJ8 con curs willi th e recommendatioll,

   N7i"I-AlCSTC-A CJ8 comillllel' l o enjoy (I belleficial professional relaliollship witll Ih e
   ,HoD, J\l/oFJ (lIld Kablll Balik. N TM-AiCSTC-A CJ8 is also recei"jllg payroll ballk report~'
   from MoD tlllI/ K ab"t Balik, helping Ill' o l'ersee. Ih e payroll process,




APPROVED Bl':                                                                l'flEl'ARED IJ)':




                                                 PageSof S




                                                                    37
Defense Finance and Accounting Service Comments






                    DEFENSE FINANCE AND ACCOUNT ING SERVIC E
                                       8899 EAST 56 TH STREET
                                     INOIANAPOLlS, INDIANA 46249



                                                                                    JAN 3 1 2012
      DFAS-JBKlIN


      MEMORANDUM FO R INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

      SUBJECT: Distribution of Funds and Mcntoring of Finance Officers for the Afghan istan
                    National Anny Payroll. Project Number D2011-DOOOFR-0089.000

         The Defense Finance and Accounting Service Indianapolis is providing management
      comments for recommendation B.2 of the subject Draft Report.

      _ _Of contact for tltis request is




                                                    /.!..J/ (j~
                                  Click to add    JPEG
                                           Aaron P.  Gillison file
                                           Director, DFAS Indianapolis

      Attachment:
      Management Comments




                                             www   ,Hu mil
                                       Your FInancial Partner 0 Work




                                                                       38
Recommendation 8.2: Wc recommend that the Director, Defense Finance and Accounting
Service Indianapolis. when requested by the Director. Combined Security Transition Command­
Afghanistan. Comptroller Office, make the appropriate resources available to the
Combined Security Transition Command-Afghanistan CJ8 Finance Reform Office to
adequately mentor the Ministry of Defense on developing controls on the Afghanistan
National Army payroll process.

Current Management Comments: The Director, Defense Finance and Accounting Service­
Indianapolis, in coordination with the United States Army Financial Management Command,
wi ll establish an agreement to provide assistance in mentoring the Ministry of Defense on
developing controls for the Afghanistan National Army payroll process upon request from the
Director, Combined Security Transition Command-Afghanistan, ComptroUer Office.

Cu rrent Estimated Completion Date: March 1, 2012




                             Click to add JPEG file




                                                          39
